<html>
<title> - HEARING TO CONSIDER 6 TREATIES</title>
<body><pre>[Senate Hearing 107-594]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-594
 
                     HEARING TO CONSIDER 6 TREATIES

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                               MAY 7, 2002

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate





                        U.S. GOVERNMENT PRINTING OFFICE
81-051                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                   Antony J. Blinken, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)

  






                            C O N T E N T S

                              ----------                              
                                                                   Page

Barker, Dr. David Read, president, Monitor International, 
  Annapolis, MD..................................................    22
    Prepared statement...........................................    24
Grasso, Thomas V., U.S. director, Marine Conservation Program, 
  World Wildlife Fund, Washington, DC............................    19
    Prepared statement...........................................    20
Turner, Hon. John F., Assistant Secretary of State, Bureau of 
  Oceans and International Environmental and Scientific Affairs, 
  Department of State, Washington, DC............................     4
    Prepared statement...........................................     6
    Responses to additional questions for the record.............    31

                                 (iii)











                     HEARING TO CONSIDER 6 TREATIES

TREATY DOC. 106-32, An amendment to the Montreal Protocol on Substances 
 that Deplete the Ozone Layer (the ``Montreal Protocol''), adopted at 
Beijing on December 3, 1999, by the Eleventh Meeting of the Parties to 
           the Montreal Protocol (the ``Beijing Amendment``);

TREATY DOC. 106-10, An amendment to the Montreal Protocol on Substances 
 that Deplete the Ozone Layer (the ``Montreal Protocol''), adopted at 
Montreal on September 15-17, 1997, by the Ninth Meeting of the Parties 
                       to the Montreal Protocol;

TREATY DOC. 103-5, A Protocol Concerning Specially Protected Areas and 
 Wildlife to the Convention for the Protection and Development of the 
 Marine Environment of the Wider Caribbean Region, done at Kingston on 
                           January 18, 1990;

    TREATY DOC. 105-32, An Agreement Establishing the South Pacific 
     Regional Environment Programme, done at Apia on June 16, 1993;

   TREATY DOC. 105-53, A Treaty Between the Government of the United 
 States of America and the Government of Niue on the Delimitation of a 
                           Maritime Boundary;

   TREATY DOC. 107-2, A Protocol to Amend the 1949 Convention on the 
 Establishment of an Inter-American Tropical Tuna Commission, done at 
 Guayaquil, June 11, 1999, and signed by the United States, Subject to 
         Ratification, in Guayaquil, Ecuador, on the same date.

                              ----------                              






                          TUESDAY, MAY 7, 2002

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met at 10:05 a.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Paul S. Sarbanes, presiding.
    Present: Senators Sarbanes, Chafee and Allen.
    Senator Sarbanes. The committee will come to order.
    We meet this morning to consider 6 treaties, amendments, 
and protocols dealing with the Montreal Protocol, the Caribbean 
Region, and the Pacific Ocean.
    We have two amendments to the Montreal Protocol on 
Substances that Deplete the Ozone Layer. The Protocol, which 
entered into force in 1989, has been ratified by the United 
States and 182 other countries. It identifies substances that 
contribute to the depletion of the ozone layer and, therefore, 
need to be subject to international control.
    The Protocol also authorized member countries to recommend 
additional chemicals for inclusion on the list of controlled 
substances and also to recommend a schedule of reductions in 
their production and use. Four amendments have emerged from 
these recommendations. Two have already been ratified and the 
other two are before the committee this morning.
    The first is the Montreal Amendment to the Montreal 
Protocol, which bans the export or import between a party and a 
nonparty of the fumigant known as methyl bromide. This 
amendment also establishes a licensing system for controlled 
substances to combat illegal trade in these substances.
    The second amendment, the Beijing Amendment, phases out, 
with certain exceptions, a controlled substance called 
bromochloromethane, which has been used as a flame retardant 
and solvent. In addition, the amendment also creates a 
production freeze for HCFC, hydrochloroflorocarbon, which has 
been widely used as a refrigerant, and bans the trade of HCFC's 
between parties and nonparties.
    In addition to the two treaties bearing on the Montreal 
Protocol, we will also consider this morning the following four 
treaties.
    The Protocol for the 1983 Marine Environment of the Wider 
Caribbean Region Convention, frequently referred to as the SPAW 
Protocol, which establishes both a regional framework for 
cooperation on biodiversity conservation and also guidelines 
for creation and management of protected areas.
    The Protocol to Amend the 1949 Convention on the 
Establishment of an Inter-American Tropical Tuna Commission, 
which allows the EU to represent individual European countries 
at this Commission.
    Third, an agreement establishing the South Pacific Regional 
Environment Programme, which is designed to assist the small 
island nations of the Pacific in establishing environmental 
programs.
    And fourth, the Treaty between the Government of the United 
States and the Government of Niue on the Delimitation of a 
Maritime Boundary, which simply draws a boundary line in the 
Pacific Ocean between American Samoa and the island nation of 
Niue.
    Often the apparently small steps we take to protect the 
environment carry with them broad and far-reaching 
implications. We know that international cooperation and 
coordination are essential. Pollution of the air and the oceans 
is no respecter of national borders. The complex issue of ozone 
is obviously a case in point.
    The Montreal Protocol addresses the increasingly urgent 
problem of depletion of the stratospheric ozone level, which 
has increased the penetration of harmful ultraviolet rays in 
the Earth's atmosphere. One consequence, of course, is the rise 
in the number of cases of skin cancer reported in recent years. 
Ozone depletion has other numerous and serious adverse effects, 
and it poses a threat to numerous ecosystems. It also affects 
our weather, sometimes in apparently contradictory ways.
    To address the amendments to the Montreal Protocol and the 
other issues before the committee, we are fortunate to have 
several expert and distinguished witnesses. We will first hear 
from John Turner, the Assistant Secretary of State for Oceans 
and International Environmental and Scientific Affairs, and 
subsequently we will have a panel of witnesses, Tom Grasso, the 
U.S. director for Marine Conservation Program of the World 
Wildlife Fund, and Dr. David Read Barker. Dr. Barker is 
president of Monitor International, an environmental NGO based 
in Annapolis, Maryland.
    John Turner is the State Department's senior official on 
environmental matters. He has come to the State Department from 
an impressive career in the environmental field. He was 
president and chief executive officer of the Conservation Fund. 
Between 1989 and 1993 he served as Director of the U.S. Fish 
and Wildlife Service, which of course is a very important 
Agency of the Government. So, we are very pleased to have 
Secretary Turner here.
    Before turning to you, John, for your statement, I will 
yield to my colleagues for any opening comments they may have. 
First, Senator Allen.
    Senator Allen. Thank you, Mr. Chairman. Thank you for 
holding this hearing. I look forward to listening to the 
testimony of all our witnesses.
    I would like to make a few statements here as we examine 
these treaties today. As technical but also very useful 
advancements in our continuing effort to protect people from 
harmful substances that may occur in the air or in our water, 
the 1990 Protocol to the 1983 Caribbean Marine Environment 
Initiative I think will increase the degree of protection that 
will be afforded in the Caribbean area, which is clearly of 
interest to American citizens. With the reservation and 
understanding included in the transmission, the Protocol 
appears to strike a reasonable balance worthy of favorable 
consideration.
    The 1997 Montreal Amendment to the Montreal Protocol 
expands trade controls to cover methyl bromide and provide for 
licensing, as you stated, Mr. Chairman, for the import and 
export of these controlled substances with special 
dispensations for underdeveloped states.
    The Beijing Amendment to the Montreal Protocol establishes 
controls over trade in and production of 
hydrochloroflorocarbons, or HCFC's, and adds methyl bromide to 
the list of these substances controlled by the Protocol. Now, 
these amendments were posited as steps in a methodical 
establishment of controls over substances which have legitimate 
uses but pose an apparent danger to the stratospheric ozone 
layer.
    There are two points I would like to make, as we go forward 
with this. Point No. 1 is I think it is desirable for us to 
know what the impact of these agreements or protocols or 
treaties are. Do we have some scientific data that would 
indicate how the air or the water has been improved since the 
production and use of these substances have been lessened?
    The second point that I think would follow from any 
scientific data we could demonstrate would be that in future 
negotiations, I would like to encourage advancing of the 
compliance provisions for underdeveloped states which currently 
do not fall under the Beijing Amendment until the year 2016, at 
which point the time table for decreasing use and production 
will apply. The benchmark for that time table is the level of 
production and consumption in the year 2015, which seems to be 
a far distant point if we are engaged in serious and deliberate 
efforts to control these substances which are threats to our 
ozone layer.
    And I hope that the action by the United States will 
encourage the ratification by other states of the Montreal, 
Beijing, and earlier amendments. The number of states that have 
ratified these amendments is lagging significantly behind the 
number that have ratified the basic Montreal Protocol. And I 
think that wider acceptance of the full package of amendments 
is required if the advantages sought by this effort are to be 
fully recognized.
    I want to close by thanking all of our witnesses, Mr. 
Chairman, for appearing today, in particular Secretary John 
Turner. Working with the Bureau of Oceans and International 
Environmental and Scientific Affairs, Secretary Turner is doing 
a tremendous job, heading up programs concerning HIV/AIDS and 
other infectious diseases, the environment, the study of 
climate change, ocean affairs, and science and technology. The 
Bush administration is very fortunate to have his outstanding 
leadership. He has a terrific track record in wildlife 
conservation, outdoor recreation, and natural resources 
policies. He is also an asset to Secretary Powell.
    I will close with a personal note. Secretary Turner, I note 
you are from Moose, Wyoming. I am going to try to bring my 11-
year-old son to Moose this summer so he can go to the Chuck 
Wagon, not to the bar, but he likes to eat a lot and they have 
a great--I would not call it a buffet, but just a good feed 
there. So, anybody who is from Moose, Wyoming clearly 
appreciates our natural beauty and the protection thereof. So, 
thank you, Secretary Turner.
    Thank you, Mr. Chairman.
    Senator Sarbanes. Thank you, Senator Allen. And I am sure 
the Chamber of Commerce of Moose, Wyoming is greatly heartened 
by your comments here this morning.
    Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman, for holding the 
hearing, first of all.
    I note that these treaties we will be discussing already 
exist under statutory authority and no new costs will be 
incurred, and that generally they are noncontroversial. So, I 
do not know if we will be hearing any dissenting voices here 
this morning, but I am certainly interested in their swift 
passage also.
    Senator Sarbanes. Secretary Turner, we are happy to hear 
from you.

STATEMENT OF HON. JOHN F. TURNER, ASSISTANT SECRETARY OF STATE, 
BUREAU OF OCEANS AND INTERNATIONAL ENVIRONMENTAL AND SCIENTIFIC 
          AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Turner. Senator Sarbanes, Senator Allen and Senator 
Chafee, thank you very much for this opportunity to appear 
before the committee on six important international agreements. 
All of us in the administration appreciate the hectic and 
demanding schedule that you have, so we greatly appreciate your 
consideration of these six measures which we think are 
important to the United States. I am, indeed, pleased to join 
Tom Grasso and David Barker here before you this morning.
    I have submitted a written statement, Mr. Chairman, for the 
record and so I would just like to briefly describe each of the 
six treaties before you.
    Senator Sarbanes. The full statement, without objection, 
will be included in the record.
    Mr. Turner. Mr. Chairman, as you noted, the first measure 
before you is the Protocol Concerning Specially Protected Areas 
and Wildlife, called the SPAW Protocol, which is, of course, an 
outgrowth of the Cartagena Convention. We believe this is an 
important cooperative effort to protect and improve the marine 
environment and the living systems of the Caribbean Sea and the 
Gulf of Mexico, very important to the territories of the 
Caribbean and those ecosystems around the southeast coast of 
the United States.
    A focus on the Caribbean area is a high priority for the 
Bush administration. We can recall that President Bush recently 
called this backyard area our Third Border because of its 
importance to the people of the United States.
    The members will note that we are suggesting two 
reservations and a clarification, which I am happy to answer 
any questions on, if the committee is interested.
    The second provision has to do with the South Pacific 
Regional Environment Program, called SPREP. This organization, 
Mr. Chairman, has been around for a couple of decades. It just 
recently in 1995 became an independent body, and of all the 
participating nations in this important organization, all have 
ratified this except for the United States. So, we appreciate 
your consideration.
    We feel this organization is important to our interests 
simply because the U.S. territories of American Samoa, Guam, 
and the Commonwealth of the Northern Mariana Islands are 
located there, and of course, the region also interrelates with 
the State of Hawaii. We feel this organization is the best 
forum for the United States to influence, cooperate, and help 
the people in the region deal with environmental programs and 
sustain their development opportunities. Also this forum allows 
us to cooperate with Australia, New Zealand, France, and the 22 
island nations in the region. We are going to utilize this 
particular forum as a model where territories are allowed to be 
participants in the discussion, along with the nation states.
    Mr. Chairman, the third provision is a treaty with Niue on 
the Delineation of the Maritime Boundary. This is a standard 
maritime agreement which will delineate the boundary in the 
waters between American Samoa and Niue.
    The fourth and fifth important provisions are the Montreal 
and Beijing Amendments to the Montreal Protocol, which as you 
noted, was ratified in 1988 and is an important international 
effort to control some 96 substances which deplete the ozone 
layer and toxic chemicals like chlorofluorocarbons, CFC's. 
These two particular amendments before you we consider fine 
tuning. They are logical steps, taking advantage of science and 
experience as the world community continues efforts to repair 
the ozone layer which screens us from a high incidence of skin 
cancer, cataracts, and even abnormalities in animals.
    The Montreal Amendment, the first one, entered into force 
in the year 2000, and as of mid-April of this year, 79 other 
countries have gone ahead and ratified. The Montreal Amendment 
addresses two important trade matters.
    The first bans trade of methyl bromide between parties and 
nonparties. This avoids giving a competitive advantage to 
noncomplying nations. It is the same provision that we have 
applied to other identified chemicals.
    Second, it calls on the Protocol parties--all of us who are 
members--to implement an import and export system so we can 
track the flow of these controlled substances.
    The second amendment to the Montreal Protocol is the 
Beijing Amendment. That entered into force in February of this 
year. It has been ratified by 30 other countries. The Beijing 
Amendment adds bromochloromethane as a controlled substance to 
ensure its phaseout before it becomes used in a widespread 
manner, especially in developing countries.
    Second, it establishes a trade and production control on 
hydrochlorofluorocarbons, HCFC's, and it will freeze their use 
in 2004 and will again ban trade between parties and 
nonparties.
    And No. 3, the Beijing Amendment will require parties to 
report on the use of methyl bromide for quarantine and 
preshipment purposes.
    The last provision before you, Mr. Chairman, is a Protocol 
amending the 1949 Convention of the IATTC, the Inter-American 
Tropical Tuna Commission. This will allow the European 
Commission to become a member of this 50-year-old organization, 
which traditionally only states have been party to. The EC has 
become a competent body to regulate fishing vessels, and it is 
our belief that it is important to have the EC a member in the 
conservation and management of the tuna fisheries and the 
fishing fleets of the eastern Pacific Ocean. We want vessels 
flying the EC flag to comply with the provisions of IATTC.
    In conclusion, Mr. Chairman, these proposals share some 
common elements and themes which I hope the Senate will find 
favorable. First, all these agreements will work under existing 
statutory authority. There is no need for legislative action 
with our own laws.
    No. 2, all these forums operate on a consensus-based 
decisionmaking process, the best forum to be sure that we 
protect U.S. interests.
    The third theme, none of these proposals will incur 
additional budgetary expenses.
    And I am pleased to report to date we have had general 
support from both public and private stakeholders for all six 
agreements before you, Mr. Chairman.
    Again, many thanks for taking the time to consider these 
provisions, and I am happy to try to answer any questions that 
members might have. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Turner follows:]

   Prepared Statememt of Hon. John F. Turner, Assistant Secretary of 
State, Bureau of Oceans and International Environmental and Scientific 
                                Affairs

    Mr. Chairman and Members of the Committee, I am pleased to be here 
today to discuss six important international agreements that have been 
submitted to the Senate for Advice and Consent--the Protocol Concerning 
Specially Protected Areas and Wildlife (SPAW) to the Convention for the 
Protection and Development of the Marine Environment of the Wider 
Caribbean Region (Cartagena Convention), or the ``SPAW Protocol;'' the 
South Pacific Regional Environment Program (SPREP) Agreement; the Niue 
Boundary Treaty; an amendment to the Inter-American Tropical Tuna 
Commission; and two amendments to the Montreal Protocol on Substances 
that Deplete the Ozone Layer, the ``Montreal Amendment'' and the 
``Beijing Amendment.'' Because these agreements serve important U.S. 
foreign policy interests, we favor their early ratification.
    While these agreements address different situations in different 
parts of the world, they share several common elements. First, any 
obligations set forth in these agreements can be undertaken through 
existing statutory authority. No changes in law are required. Second, 
consensus-based decision-making is the modus operandi for the governing 
bodies of these agreements, even for those agreements that formally 
provide for voting. This means that in matters affecting the lives of 
American citizens--whether it concerns protecting the ozone layer or 
conserving marine resources--the United States can adequately protect 
American interests. Third, no new costs will be created. And fourth, we 
understand that U.S. ratification of these agreements is not 
controversial and is generally supported by the public and private 
stakeholders.
 the protocol concerning specially protected areas and wildlife to the 
convention for the protection and development of the marine environment 
                     of the wider caribbean region
    Turning to a brief description of each agreement, the SPAW Protocol 
serves to protect the marine environment of the Gulf of Mexico and 
Caribbean sea, including the areas surrounding the U.S. mainland off 
the coast of Florida and the Gulf States and territories in the 
Caribbean region. This Protocol is an outgrowth of the Cartagena 
Convention, and is one of three Protocols anticipated by the Cartagena 
Convention. The Convention establishes general legal obligations for 
the protection and preservation of the marine environment of the 
Caribbean region. Geographically, it covers the marine environment of 
the Gulf of Mexico, the Caribbean Sea and areas primarily within 200 
nautical miles of the Atlantic coasts of 20 countries and island 
territories. Twenty-eight countries of the Wider Caribbean Region are 
eligible to become Parties to the Cartagena Convention and its 
Protocols. Currently, ten countries are Parties to the SPAW Protocol, 
while eleven others are non-Party Signatories.
    The SPAW Protocol also encompasses internal waters extending in the 
case of watercourses up to the fresh water limit, and any related 
terrestrial areas (including watersheds) that a party may wish to 
designate. It requires parties to establish protected areas and to take 
specified protection and management measures therein, as necessary and 
appropriate to carry out the provisions of the Protocol, and in 
conformity with national laws and regulations and international law.
    U.S. participation would demonstrate our political interest in 
protecting the environment of the wider Caribbean Region. We feel so 
strongly about the need to do so, that we have identified the Caribbean 
as a focus for the upcoming World Summit on Sustainable Development. 
Strengthening our support for the Cartagena Convention by ratifying the 
SPAW Protocol will allow us to better protect the marine resources of 
the Wider Caribbean region--our backyard and, as President Bush has 
dubbed, our Third Border. Many non-governmental organizations, such as 
Monitor International, the World Wildlife Fund, The Nature Conservancy, 
and the Humane Society of the United States, support U.S. ratification 
of the SPAW Protocol.
    Were the United States to ratify the SPAW Protocol, we would issue 
two reservations and an understanding along with our ratification. One 
of the reservations is needed to ensure that our application of Article 
11 of the Protocol is consistent with provisions of the Marine Mammal 
Protection Act (MMPA) and the Endangered Species Act (ESA) that allow 
for the limited taking of species listed in Annex I and II for the 
purpose of public display, scientific research, rescue and 
rehabilitation, or as incidental catch related to fishing operations. 
The second reservation is to Article 13, which could be interpreted to 
require environmental assessments for non-Federal activities not 
covered by the National Environmental Policy Act of 1969, as amended 
(NEPA). The Understanding would state that the provisions of the 
Protocol do not apply to non-native species.
    There are three Annexes that contain the lists of 481 endangered 
and threatened species of flora and fauna covered by Article 11 of the 
Protocol. The United States plans to notify the depositary at the time 
it accepts the Annexes that the Protocol will not apply to six species 
of fauna and flora that do not require the protection provided by the 
Protocol in U.S. territory. It is envisioned that the Annexes will be 
treated separately as an Executive Agreement.
      south pacific regional environment program (sprep) agreement
    The South Pacific Regional Environment Program (SPREP) has existed 
for nearly twenty years to protect and improve the South Pacific 
environment and to ensure sustainable development in that region. The 
U.S. territories of American Samoa, Guam and the Commonwealth of the 
Northern Mariana Islands, are located within the SPREP region. The 
State of Hawaii is also closely linked to the Pacific basin by 
geography, history, economics and politics. SPREP provides for 
increased cooperation among the United States, Australia, New Zealand, 
France and twenty-one island States and territories of the South 
Pacific region in addressing issues affecting the environment and 
development in the region.
    SPREP is the best opportunity for us to both influence regional 
Pacific environmental policies and encourage coordinated approaches on 
environmental and sustainable development issues. With greater 
commercial development, the region's unique wildlife and plants are at 
risk. U.S. participation in SPREP sends a strong signal that the 
Pacific region is a priority for us.
    Negotiations to conclude the agreement ended in 1993. Prior to the 
agreement, SPREP had the status of an informal institution housed 
within the South Pacific Commission. The agreement simply accords SPREP 
formal status as an intergovernmental organization. It will not change 
our costs or the manner of our participation. The United States as well 
as its territories, American Samoa, Guam and the Commonwealth of the 
Northern Mariana Islands believe that U.S. interests would be best 
served by moving rapidly to become a Party to the Agreement, which 
entered into force on August 31, 1995. With the exception of the United 
States, all 18 remaining active members that participated in the 
negotiations are Parties to the agreement.
        treaty with niue on delimitation of a maritime boundary
    On May 13, 1997, in Wellington, New Zealand, the Governments of the 
United States and Niue signed a treaty delineating a maritime boundary 
between their respective territories in the South Pacific. The purpose 
of the U.S. Treaty with Niue on Delimitation of a Maritime Boundary, is 
to create a maritime boundary in the waters between American Samoa and 
Niue. Niue is an island in the South Pacific Ocean about one and a half 
times the size of Washington D.C. It is in our interest to establish 
limits of the exclusive economic zone (EEZ) around American Samoa to 
give certainty to U.S. jurisdiction over the water column and sea 
floor, which allows the U.S. to manage properly the fisheries resources 
in these areas. The boundary is based on an equidistant line, 
calculated from all relevant territories. American Samoa supports U.S. 
ratification of the agreement.
montreal and beijing amendments to the montreal protocol on substances 
                      that deplete the ozone layer
    The Montreal Protocol on Substances that Deplete the Ozone Layer 
was ratified by the United States in 1988 to strengthen international 
efforts to reduce the effects of ozone depleting chemicals, such as 
chlorofluorocarbons (CFCs). Scientific evidence showed that more steps 
were needed to protect human health from the debilitating effects of 
ozone depletion. Increased UVB radiation associated with ozone 
depletion is linked to serious health and environmental effects 
including higher incidences of skin cancers and eye cataracts and 
ecosystem disruption.
    A multilateral regime such as that provided in the Montreal 
Protocol is necessary to control emissions of ozone-depleting 
substances because such emissions occurring anywhere could affect the 
ozone layer globally. The Montreal Protocol established schedules and 
timetables for reducing CFCs and other ozone depleting substances based 
on sound science. Since the Protocol's entry into force, four 
amendments have been adopted to quicken the pace of repairing the ozone 
layer. The London Amendment, which sped up the phase-out schedule for 
CFCs and other major ozone depleting chemicals, was adopted in 1990 and 
ratified by the United States in 1991. The 1992 Copenhagen amendment, 
which provides for controls on three new substances, including methyl 
bromide, was ratified by the United States in 1994.
Montreal Amendment
    The 1997 ``Montreal'' Amendment, which entered into force in 2000, 
is designed to address two important trade-related matters. First, the 
amendment bans the trade in methyl bromide between a Party and a non-
Party. This provision is identical to trade provisions that have been 
included in the Montreal Protocol for other controlled chemicals. It is 
designed to protect the environment by ensuring that countries that 
have not agreed to the Montreal Protocol's production and consumption 
rules for methyl bromide do not have unfettered access to this ozone 
depleting compound. In addition, the Protocol's trade provisions ensure 
that non-Parties do not gain a competitive advantage over Parties that 
do comply with these reduction provisions. Second, the amendment calls 
on each Party to put in place a system for licensing the import and 
export of all new, used, recycled and reclaimed controlled substances 
under the Montreal Protocol. Finally, the amendment makes it illegal 
for non-complying producers to export ``recycled'' substances. It is 
important to note that the last two provisions (both the licensing 
system and the restriction on exports of recycled substances) will 
support law enforcement efforts to prevent the illegal trade in 
controlled substances.
Beijing Amendment
    The 1999 Beijing Amendment, which entered into force in February 
2002, further fine-tunes the Montreal Protocol. The amendment adds 
bromochloromethane, an industrial solvent and flame retardant to the 
control regime. This action will ensure the phase-out of this new ozone 
depleting chemical before it can come into widespread use, possibly in 
developing countries. The Beijing Amendment also establishes trade and 
production controls on hydrochlorofluorocarbons (HCFCs), similar to 
those which already exist for other controlled substances. The trade 
provisions ban trade in HCFCs between Parties and non-Parties, while 
the production controls limit the amount of HCFCs that can be produced 
as they are gradually phased out over the next two decades. Finally, 
the amendment requires Parties to report on their use of methyl bromide 
for quarantine and preshipment purposes.
    U.S. ratification of the Montreal and Beijing Amendments would send 
a clear signal that the Administration is committed to strengthening 
international environmental standards on chemicals that degrade the 
global environment. In addition, because these amendments have both 
already entered into effect, ratification would allow the United States 
to fully participate in Montreal Protocol decisions related to these 
two agreements.
   protocol amending 1949 convention of inter-american tropical tuna 
                               commission
    Finally, I would like to mention briefly the Protocol amending the 
1949 Convention on the Establishment of an Inter-American Tropical Tuna 
Commission (IATTC). The Protocol amends the Convention to allow the 
European Commission (EC) to become a member of the IATTC. The original 
Convention, adopted in 1949, only allows States to be members of the 
Commission. Today, however, it is the EC, not the Member States, that 
has the competence to regulate fishing vessels of EC Member States 
fishing in the Convention area. The Protocol includes language that has 
become standard in regional fishery conventions to allow membership by 
``regional economic integration organizations.'' This would be the 
first time the Convention has been amended since its entry into force 
in 1950.
    The current members of the IATTC are the United States, Costa Rica, 
Ecuador, El Salvador, France, Guatemala, Japan, Mexico, Nicaragua, 
Panama, Vanuatu and Venezuela. Collectively, the members of the IATTC 
review research conducted by the IATTC scientists and adopt 
conservation and management measures for the tuna fisheries of the 
eastern Pacific Ocean, which the members are then legally bound to 
implement. In recent years, these measures have included catch quotas 
for yellowfin tuna and bigeye tuna, measures to reduce bycatch in tuna 
purse seine fisheries, and other measures.
    Allowing the EC to accede to the Convention serves important U.S. 
interests. EC membership in the IATTC is the only way to ensure that 
vessels flying the flag of any BC Member State are bound by the 
conservation and management measures adopted by the IATTC for the 
fishery resources of the eastern Pacific Ocean. Although the BC 
participates in the meetings of the IATTC and has generally complied 
with the conservation and management measures adopted by the 
organization, it is currently not legally bound to do so. If vessels 
operating under EC jurisdiction are to be legally bound by such 
measures, the EC must be allowed to accede to the Convention.
                               conclusion
    In conclusion, we strongly request your favorable consideration of 
these agreements. Thank you for the opportunity to appear before you 
today and I look forward to answering any questions you may have.

    Senator Sarbanes. Thank you very much, Secretary Turner.
    First of all, as I understand it, the administration, 
obviously since you are here, supports all of these treaties 
and is asking us to ratify them. Is that correct?
    Mr. Turner. The administration is in strong support of 
ratification of these six measures.
    Senator Sarbanes. Second, you mentioned it in a couple of 
instances but you did not do it with each one, I would be 
interested in how far along we are on the path of having these 
various treaties approved by other countries. Could you just 
give us a rundown on that if you have it there?
    Mr. Turner. I believe I can, Mr. Chairman. On the SPAW 
Protocol, there are 11 signatories and all have ratified except 
for the United States. The treaty with Niue, of course, that is 
bilateral, and both countries still need to ratify that. On the 
SPREP agreement, 17 of the 18 signatories have ratified pending 
approval of the United States to make it 18. On the IATTC, 
there are 8 signatories to that and only France has ratified to 
date.
    Senator Sarbanes. That's the tuna----
    Mr. Turner. The tuna one, it is my understanding that the 
only one to ratify that to date has been France.
    Senator Sarbanes. All right, go ahead.
    Mr. Turner. And I will clarify these if I am mistaken, for 
the record.
    On the Montreal Amendment, 79 countries have ratified it, 
and 30 countries have ratified the Beijing Amendment.
    Senator Sarbanes. That is out of 184? Is that correct?
    Mr. Turner. I believe that would be correct.
    Senator Sarbanes. Why is the Beijing one not as far along? 
Do you know?
    Mr. Turner. Well, the Beijing Amendment entered into force 
February of this year. Sufficient countries had ratified it.
    Senator Sarbanes. How many were needed to put it into 
force?
    Mr. Turner. We will supply that answer for the record, 
Senator.
    [The following answer was subsequently provided.]

    A total of 20 Parties.
    In February 2002, the Beijing Amendment entered into force 
following its ratification by 20 Parties to the Montreal Protocol that 
had either previously or simultaneously submitted their instruments of 
ratification for the Montreal Amendment. Thus far, 30 instruments of 
ratification have been deposited.

    Senator Sarbanes. You say only 30 have approved it.
    Mr. Turner. Yes, 30 have approved it.
    Senator Sarbanes. Out of 184? There are 184 countries that 
have ratified the Montreal Protocol. Is that correct?
    Mr. Turner. It is my understanding 183 countries have 
ratified the Montreal Protocol.
    Senator Sarbanes. OK, and 79 of those have approved the 
Montreal Amendment to the Montreal Protocol. Is that correct?
    Mr. Turner. Yes, Mr. Chairman, and that went into effect in 
November 1999.
    Senator Sarbanes. When it had how many signatories, do you 
know?
    Mr. Turner. I will have to supply for the record the number 
needed to----
    [The following answer was subsequently provided.]

    Only countries that are Parties to the Montreal Protocol, not 
signatories, are eligible to approve amendments to the Protocol. To 
become a Party to the Montreal Protocol, an instrument of ratification, 
accession, approval or acceptance must be submitted to the Depositary. 
Each amendment to the Protocol must be ratified individually. The 
Montreal Amendment entered into force upon the deposit of 20 
instruments of ratification by Parties to the Montreal Protocol.

    Senator Sarbanes. Now, 30 have done the Beijing Amendment.
    Mr. Turner. Correct.
    Senator Sarbanes. Out of 183. And that is enough to put it 
into effect?
    Mr. Turner. Yes, sir. It went into effect in February.
    Senator Sarbanes. Do we know how many countries it takes to 
put an amendment to the Protocol in effect?
    Mr. Turner. Mr. Chairman, it is my understanding that it 
took 20 to ratify the Beijing Amendment for it to go into 
effect. So, if it went into effect in February 2002----
    Senator Sarbanes. How many did it take for the Montreal 
Protocol itself to go into effect?
    Mr. Turner. We will supply that for the record, Senator. It 
took 20 countries to modify the two amendments under 
consideration this morning.
    [The following answer was subsequently provided.]

    The entry-into-force requirement of the Montreal Protocol 
stipulates that it will enter into force on January 1, 1989, provided 
that 11 instruments of ratification have been submitted by States or 
regional economic integration organizations representing at least two-
thirds of the 1986 estimated global consumption of controlled 
substances and provided that the Vienna Convention had entered into 
force.
    The Protocol, indeed, came into force, on January 1, 1989, by which 
time 29 countries and the EEC, representing approximately 82% of world 
consumption, had ratified it.

    Senator Sarbanes. The thrust of my question is obviously a 
process question. I do not know that it directly has anything 
to do with the substance because I do not have a problem with 
the substance. But it is interesting that only 20 countries out 
of 183 countries that have ratified the treaty can amend the 
treaty and put that amendment into effect. If you could work 
that up for us, I would appreciate it.
    Mr. Turner. We will get you some additional information. I 
think it might be worth noting that it is important that those 
developing countries that are in a leadership position in the 
chemical arena--certainly the standard has been in the Montreal 
Protocol that countries like the United States taking a lead 
and helping developing countries with their phaseout of their 
production and their research. So, I think it is important that 
the United States be a leader in this effort.
    [The following answer was subsequently provided.]

    The number of ratifications that are required for an amendment to 
an international environmental agreement to enter into force varies 
from agreement to agreement. The Montreal Protocol parties decided to 
allow amendments to enter into force with 20 ratifications, in part to 
allow controls on ozone depleting chemicals to become effective in a 
timely manner. However, if the concern is that only a small number of 
countries can amend the treaty, it also must be agreed by consensus or, 
after every effort to reach consensus has been made, by 3/4 majority as 
a last resort.

    Senator Sarbanes. I do not differ with that. It sort of 
makes me pause for a minute that you have a treaty that has 183 
signatories to it and that only 20 of the 183 can put an 
amendment into effect with respect to that treaty.
    Mr. Turner. I think it is a worthwhile observation, and we 
will get back with some further explanation of why that was so.
    [The following answer was subsequently provided.]

    This process has worked well in practice and a significant number 
of countries have ratified the four Montreal Protocol amendments. The 
1990 London Amendment has now been ratified by 163 countries, the 1993 
Copenhagen Amendment by 141 countries, the 1997 Montreal Amendment by 
79 countries, and the 1999 Beijing Amendment by 30 countries. Since it 
is not unusual for some countries to take five years or more to 
complete their ratification process, this demonstrates the willingness 
of the Montreal Protocol parties to adhere to new amendments. U.S. 
ratification is particularly important because it encourages other 
countries to ratify quickly.

    Senator Sarbanes. Do you have any other treaties pending, 
or does this cover your agenda, what we are doing here this 
morning?
    Mr. Turner. Senator Sarbanes, I believe on Thursday we will 
have a hearing on the POP's Treaty. Certainly we have the Law 
of the Sea.
    Senator Sarbanes. I think that is before another committee, 
as I understand it. That is the Stockholm Convention on 
Persistent Organic Pollutants?
    Mr. Turner. Yes, Mr. Chairman. And we have the PIC, the 
Prior Informed Consent.
    Senator Sarbanes. Yes. I think you have just sent that up, 
as I understand it.
    Mr. Turner. And the POP's just recently was sent. The 
President just recently signed that. The holdup on that one has 
been legislation accompanying that was prepared by EPA.
    Senator Sarbanes. Do you have any other treaties?
    Mr. Turner. We have the Law of the Sea before the Senate. 
And there may be some others that we will notify the committee 
of that might be before the Senate.
    Senator Sarbanes. I think it would be helpful if you could 
send us a letter about the balance of your agenda, if any, as 
it relates to this committee beyond the six treaties on which 
we are holding this hearing this morning.
    Mr. Turner. And then, Senator Sarbanes, I know we have some 
others in the works on fisheries, polar bears, but whether they 
come before your committee, I will get that to you. Thank you 
for the question.
    [The following answer was subsequently provided.]

    The following treaties of particular interest to the OES Bureau are 
pending in the Committee:

  <bullet> Treaty Doc. 103-39: United Nations Convention on the Law of 
        the Sea, with Annexes, done at Montego Bay, December 10, 1982 
        and the Agreement Relating to the Implementation of Part XI of 
        the United Nations Convention on the Law of the Sea of December 
        10, 1982, with Annex, adopted at New York, July 28, 1994.

  <bullet> Treaty Doc. 106-21: Rotterdam Convention on the Prior 
        Informed Consent Procedure for Certain Hazardous Chemicals and 
        Pesticides in International Trade, with Annexes. Done at 
        Rotterdam, September 10, 1998.

  <bullet> Treaty Doc. 98-10: Amendment to the 1973 Convention on 
        International Trade in Endangered Species of Wild Fauna and 
        Flora. Adopted at Gaborone, April 30, 1983.

  <bullet> Treaty Doc. 103-20: Convention on Biological Diversity. Done 
        at Rio de Janeiro, June 6, 1992.

  <bullet> Treaty Doc. 107-5: Stockholm Convention on Persistent 
        Organic Pollutants, with Annexes. Done at Stockholm, May 23, 
        2002.

    Below are treaties that we have negotiated that are not yet before 
the Committee, but may be submitted to the Senate before the end of the 
107th session of Congress:

  <bullet> 1996 Protocol to the Convention of Marine Pollution by 
        Dumping of Wastes and Other Matter, 1972, with Annexes. Done at 
        London, November 7, 1996.

  <bullet> Protocol of 1997 to Amend the International Convention for 
        the Prevention of Pollution from Ships, 1973, as modified by 
        the Protocol of 1978 relating thereto [to add Annex VI--
        Regulations for the Prevention of Air Pollution from Ships]. 
        Done at London, September 26, 1997.

  <bullet> Protocol Concerning Pollution from Land-based Sources and 
        Activities to the Convention for the Protection and Development 
        of the Marine Environment of the Wider Caribbean Region, with 
        Annexes. Done at Oranjestad, October 6, 1999. Signed by the 
        U.S. October 6, 1999.

  <bullet> Convention on the Conservation and Management of Highly 
        Migratory Fish Stocks in the Western and Central Pacific Ocean. 
        Done at Honolulu, September 4, 2000. Signed by the U.S. 
        September 5, 2000.

  <bullet> Agreement with Russia on the Conservation and Management of 
        the Alaska-Chukotka Polar Bear Population. Signed at 
        Washington, October 16, 2000.

  <bullet> Amendment to the 1981 Treaty Between the Government of the 
        United States of America and the Government of Canada on 
        Pacific Coast Albacore Tuna Vessels and Port Privileges. Done 
        at Seattle, April 24, 2002.

  <bullet> 1987 Treaty on Fisheries Between the Governments of Certain 
        Pacific Island States and the Government of the United States 
        of America. Done at Christmas Island, Kiribati, May 24, 2002.

    Senator Sarbanes. Good.
    Senator Allen.
    Senator Allen. Thank you, Mr. Chairman. Let me just ask 
some questions on this.
    First, let me followup on the process----
    Senator Sarbanes. George, let me just intervene for a 
second. I am informed that the POP's Treaty would actually be 
referred to this committee, but that the hearing that you are 
referring is on the implementing legislation and I think that 
will be before the Environment and Public Works Committee, just 
to be clear on that point.
    Senator Allen. I want to get into some of the merits and 
science, but let me just followup on the chairman's questions 
on jurisdiction and effectiveness I guess in process.
    Clearly if a country votes and ratifies the Montreal 
Protocol, it applies to them, the 183. Assume it can be amended 
with 20 countries, and 30 countries have agreed to an 
amendment. Is that amendment binding only on those 30 
countries?
    Mr. Turner. Yes.
    Senator Allen. All right, it is. So, you still have a long 
way to go on some of these amendments. It is just like a new 
treaty. Granted, it is an add-on or it is an amendment to the 
basic one. But there are many countries, some of which may be 
larger producers or users of the substances, but still have to 
ratify these amendments.
    Mr. Turner. Senator, it is my understanding that the 
provisions only apply to those that are parties that have 
ratified it. But certainly the nonparties would be impacted by 
the prohibitions on trade.
    Senator Allen. Well, let me ask you on the trade then, to 
the substance of this. Clearly illegal trade in substances 
controlled under the Protocol applies. Is illegal trade 
extensive, and if it is, if this illegal trade is extensive, 
could you share with us who the major violators are?
    Mr. Turner. Senator, I would like to get back to you on the 
levels of trade. It certainly is a focus for this 
administration, and I think we have had some real success 
stories in reducing the trade on several of these chemicals. 
Certainly we had a problem with Russia as it went through the 
breakup and they were still in the production of some of these 
chemicals, and working positively with Russia, we were able to 
change that. So, what the actual flow of many of these 
substances--perhaps we can submit to the committee some more 
information.
    [The following information was subsequently provided.]

    The United States and the international community have recognized 
and worked to address the problem of illegal smuggling of ozone 
depleting substances (ODS). Significant action has been taken by 
calling on countries to combat illegal imports, and providing training 
and assistance to government and customs officials to prevent these 
illicit activities. Estimates of the levels of illegal trade are highly 
speculative by their nature. Illegal smuggling of CFCs in the mid-1990s 
was estimated based on government and industry information to be in the 
range of 16,000 to 38,000 tons of CFCs annually, representing 
approximately 6 to 15% of global production. In the United States, the 
Department of Justice has taken strong action on CFC smuggling, seizing 
nearly 2.5 million pounds over the past decade and securing numerous 
convictions resulting in fines and jail sentences. Illegal traffic is 
believed to have peaked in the mid-1990s and decreased since that time 
due to (1) the deterrent effect from enhanced efforts and convictions 
achieved by law enforcement and customs officials, and (2) the 
reduction in demand for CFCs as obsolete equipment is replaced or 
retired. The provision included in the Montreal Amendment establishing 
a licensing system for controlled substances is particularly important 
because it will assist law enforcement in efforts to track and prevent 
illegal smuggling.

    Senator Allen. The reason I ask this, obviously, the 
effectiveness of any of these treaties is based upon 
compliance, and if we are going to try to stop illegal trade, 
we need to know who the violators are, if there are any. There 
are many things that will come before the Foreign Relations 
Committee in our dealings with certain countries where this 
sort of compliance, while it may have to do with, say, foreign 
aid, it may have to do with various types of assistance to 
these countries, that we might be able to use compliance with 
these environmental concerns as one of the conditions precedent 
for them receiving that aid.
    I do not know the extent of it, but there are times--and I 
am not going to bring up any country because I am not going to 
cast any aspersions without knowing what the evidence and the 
facts are. But nevertheless, there are treaties, there are 
arrangements, there is assistance from our country that we 
provide to many, many nations around the world, and to the 
extent that we want to be reducing some of these dangerous 
substances in the air that affect our ozone layers, it seems to 
me that maybe there are ways to leverage that or just make that 
one added concern.
    For example, we always care about nuclear proliferation 
when we are looking at countries and if they have nuclear 
capabilities and they are exporting arms or possibly nuclear 
substances to countries that should not be getting them, that 
ends up affecting a whole lot of other areas as far as our 
dealings with those countries. So, maybe this would be another 
one where we can have some influence in maybe an indirect way 
to get compliance.
    Mr. Turner. Senator, I think it is an important 
observation. I appreciate the question. And not only is it 
important that these toxics be controlled because of ozone 
depletion, but also we have to be vigilant on illegal trade 
because it puts American business at an unfair advantage, 
whether you are in the chemical processing business or you are 
in the agriculture business. Our industry is trying to comply 
in the phaseout, and we do not want unfair business 
competitors, those that are violating the standards of the 
Protocol.
    Senator Allen. I agree wholeheartedly. That is why I 
mentioned in my opening remarks the importance of getting the 
so-called under-developed countries to abide by this as well, 
because if our country is abiding by it and others are 
producing, say, in agriculture or other manufacturing, 
products, if they are not complying with the same rules, not 
only are they harming the environment, but it is also harming 
jobs here in this country because those countries end up being 
more desirable possibly for those companies to operate in 
rather than in the United States or, for that matter, in France 
or Germany or other countries that are complying with it.
    As far as the Montreal Protocol--I mentioned this in my 
opening comments, and if you could share with the committee--
has the depletion of the stratospheric ozone layer been 
reversed in any measurable respect since the implementation of 
the original Montreal Protocol? If not, if you could share that 
with us, or has the rate of depletion slowed, maybe not 
reversed, but is there any measurable data that shows at least 
the rate of depletion has slowed? Of course, it would be more 
desirable if it were returning, getting better, but do you have 
any evidence of that?
    Mr. Turner. Senator, certainly I think the Montreal 
Protocol has been successful on several fronts, and we can get 
you additional information on that. Certainly we have seen the 
science of the ozone is a complex one, but in certain areas of 
the world, we have seen some restoration. But scientists at 
least tell me that without the reductions in the phaseout that 
we have experienced to date, that the ozone levels would be 10 
times in four decades what they are going to be if we did not 
have the efforts going on today which would be like 20 million 
incidents of skin cancer.
    So, it certainly has helped negate where we would be 
without the Potocol. How much we have done to restore those 
areas that have been depleted, perhaps I can find some 
additional information. It has been an extremely important 
international effort, and as Senator Sarbanes' and your 
comments have pointed out, we need to do better with it. But 
the control of some 100 substances has made a difference in 
what we would experience in ozone depletion if we had not had 
it.
    [The following information was subsequently provided.]

    It is expected that the ozone layer will slowly recover over the 
next 50 years, assuming that the Montreal Protocol and its amendments 
are fully implemented.

    Senator Allen. That is a good, broad summary of it. I think 
it would be helpful to get the specific objective data to show 
that. Obviously, everything you say is very logical, but I 
think that as we move forward, the more empirical scientific 
data we can get, the better. I think the citizens of this 
country deserve it, and I think it also will help us as well in 
the future in making determinations and also sharing that 
objective data. Especially if you have a country that has a 
relative democracy, the people of those countries will demand 
their leaders to act as well. If you have objective data rather 
than sentiments, it usually bolsters people's instinctive 
sentiments to have that evidence.
    Mr. Turner. I think it is important that the committee have 
that objective data, and I will look forward to reviewing it.
    [The following information was subsequently provided.]

    The Montreal Protocol Scientific Assessment Panel has found that 
the combined concentration of all ozone-depleting chemicals in the 
lower atmosphere peaked in 1994 and is now slightly declining.

    Senator Allen. Finally, Senator Sarbanes, if I may.
    Senator Sarbanes. Certainly.
    Senator Allen. Do you foresee any additional substances 
that might be subject to the Montreal Protocol?
    Mr. Turner. Senator, I do not know of any other materials 
that are under consideration at the moment that would be coming 
before you.
    Senator Allen. Thank you very much, Mr. Secretary.
    Mr. Turner. Senator, on a personal note, we look forward to 
welcoming you to Wyoming, welcoming you and your son to Moose. 
If I can be any help in seeing that that is an enjoyable visit 
whether it is at the Chuck Wagon next to the Snake River or 
whatever, we look forward to welcoming you to Jackson Hole 
country.
    Senator Allen. Thank you.
    Senator Sarbanes. Mr. Secretary, could you turn to page 4 
of your statement please? I want to ask you about the meaning 
of the paragraph at the top of page 4 with respect to the 
Caribbean Protocol, the SPAW.
    You say there: ``There are three Annexes that contain the 
lists of 481 endangered and threatened species of flora and 
fauna covered by Article 11 of the Protocol. The United States 
plans to notify the depositary at the time it accepts the 
Annexes that the Protocol will not apply to six species of 
fauna and flora that do not require the protection provided by 
the Protocol in U.S. territory.'' I would like an explanation 
of that.
    And then I would like an explanation of the last sentence. 
``It is envisioned that the Annexes will be treated separately 
as an Executive Agreement.''
    Mr. Turner. Senator, what we had envisioned was because the 
list of species changes, as does the list of our own Endangered 
Species Act and Marine Mammal Protection Act, as it does with 
the CITES list of species, and animal parts come on and off 
Appendix 1, 2, and 3, we thought that a good way to handle 
this, so we would not have to come before the committee with 
each species change, we would handle it as an annex like we do 
in CITES.
    Certainly the United States shares the interest and effort 
to protect rare plants and mammals, fish, and birds in the 
Caribbean region, which we share. These six species, we wanted 
to be sure we are in compliance with how we handle it under the 
Endangered Species Act. For example, they list wood storks. 
They just list it under the Annex in the Caribbean. Well, under 
United States law and program provision, we only list wood 
storks in one region of the United States, and the wood storks, 
as I recall, in Louisiana and Texas are plentiful and we do not 
list that population.
    So, I see this as a clarification, first of all, to be sure 
that the United States' adherence will be based on our programs 
and laws that you all have passed. So, I see it as a 
clarification, and it will also allow us the flexibility as we 
change our approach to specific species, or as this list 
changes, we can handle it on an annex basis.
    But we would appreciate any thoughts on that from the 
committee. It seemed like a reasonable way. And any changes to 
the Annex will be handled through the ``Federal Register'' and 
public comment as we do on the CITES list.
    Senator Sarbanes. Well, does the last sentence mean that 
the executive branch can add to the list or take off the list 
as it sees fit?
    Mr. Turner. Yes, Senator. In a procedure, whether it is the 
CITES list, as we go through the process under CITES, as we do 
under the Endangered Species Act, as we propose and have 
hearings and do biology, and list through the ``Federal 
Register,'' it would have the same kind of transparency and 
involvement of the public, public notice. It did not seem 
convenient for this committee or the Congress to be coming back 
and submitting lists of specific species to you.
    Senator Sarbanes. I am not cognizant. How does the 
Endangered Species Act work? Can the Executive add to or take 
off of that of its own volition?
    Mr. Turner. The Endangered Species Act, as I recall, gives 
the Secretary of the Interior, the Secretary of Commerce--they 
go through a rigorous procedure of findings and public notice 
and biology, but in fact they can list, remove, down-list 
species in peril based on biology, based on the laws that the 
Congress has passed and that we have adhered to for years. 
There are several hundred domestic and international species on 
those lists. So, as they change and we find more biology and 
people comment, those lists do change.
    Senator Sarbanes. And is the procedure you are suggesting 
here parallel with that procedure?
    Mr. Turner. We feel it is in compliance with--we simply 
wanted to clarify that this particular Protocol would not 
dictate to the United States the handling of species different 
than we are already required to do under existing law. I do not 
see a major conflict----
    Senator Sarbanes. No. That is the part that says that it 
will not apply to six species that do not require the 
protection provided by the Protocol in U.S. territory. Right? I 
understand that part of it. Well, I think I understand both 
parts of it, but that is not the part that I am asking about 
now.
    I am asking about the provision that the Annexes will be 
treated separately as an executive agreement and whether that 
means that the Executive--let me take an extreme example. Could 
the Executive add 481 additional endangered and threatened 
species?
    Mr. Turner. Senator, highly unlikely. As species are 
nominated under our own domestic laws and the Endangered 
Species Act or the Migratory Birds, those are identified--the 
Marine Mammal Protection Act--species go on and come off those 
lists according to procedures, court cases established by the 
United States. So, those change. Of course, over decades in our 
country, the history of wildlife protection, as you are aware 
of--we are now up to several hundred, maybe over 1,000 species, 
now domestically and international species as the biology 
shows.
    So, I see it that we would handle this list, as the 
Caribbean countries come together and identify in peril lists, 
we would say that is fine, but we just want to be sure we are 
in compliance with the list that we now have in the United 
States. So, doing it as an executive agreement allows us to 
prevent the application of the Annex list out of the Caribbean 
intruding on the sovereign decisions that the United States 
makes through its own laws and----
    Senator Sarbanes. I understand the defensive strategy. We 
are looking here whether to approve this. You give us a list of 
481 items that will be covered. Now, presumably there will be 
some Member of Congress who is interested in that list, since 
it may have an impact. Can the Executive now in the future add 
to the 481 of its own volition?
    Mr. Turner. They certainly could not add on--the Annex 
could not dictate to the United States the additional 
protection of species. The Annex under this Protocol could not 
do that. We could only do it in accordance with the laws of the 
United States that you have already adopted.
    And the reason we do it on an annex, we only have 90 days 
to file our reservations to an annex. So, this seemed to be the 
most expedient and the most flexible manner so as not to have 
to bring it to your attention.
    But no, this Annex--nor could the administration just pick 
481 species in the Caribbean and somehow impose those on the 
protection and the rigors of the law that the United States now 
has. Those will be handled separately under laws that this body 
has already provided and court law has established these 
sideboards.
    And the 481 are relatively comparable to species and 
populations we already have listed under United States law. We 
wanted to clarify these six to be sure that this Annex would 
not impose any outside regulations against U.S. interests.
    Senator Sarbanes. Well, we may submit some followup 
questions to you on this issue.
    Also, there have been a number of matters that have come up 
in the course of the hearing where you have indicated you will 
be providing us additional information. If you could do that 
promptly, it would help in terms of consideration of these 
treaties.
    Do you have anything else?
    Senator Allen. No, I do not. Thank you, Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Secretary.
    Mr. Turner. Senator, thank you again for your indulgence 
and consideration. We will get that information back to you 
expediently.
    Senator Sarbanes. OK, very good.
    Mr. Turner. Thank you, sir.
    Senator Sarbanes. If we could ask the follow-on panel to 
come forward and take their places, we will continue here.
    Our panel consists of Thomas Grasso, the U.S. director for 
Marine Conservation Program of the World Wildlife Fund. Mr. 
Grasso is an environmental attorney. He has worked for the 
National Wildlife Federation, the Chesapeake Bay Foundation, 
and the Sierra Club Legal Defense Fund.
    And he will be followed by Dr. David Read Barker. Dr. 
Barker is president of Monitor International, an environmental 
NGO based in Annapolis, Maryland. Dr. Barker actually has spent 
more than three decades promoting sustainable development 
through partnerships among governments, community groups, and 
businesses, and is an expert on the Caribbean. I think we will 
focus most of his attention on the Protocol to the 1983 Marine 
Environment of the Wider Caribbean Region Convention.
    Mr. Grasso, we would be happy to hear from you and then we 
will go to Dr. Barker.

     STATEMENT OF THOMAS V. GRASSO, U.S. DIRECTOR, MARINE 
   CONSERVATION PROGRAM, WORLD WILDLIFE FUND, WASHINGTON, DC

    Mr. Grasso. Thank you, Senator Sarbanes and Senator Allen. 
It is a pleasure to be here today and it is a privilege as 
well.
    With your permission, I would like to dispense with the 
reading of my written testimony and just make a few brief 
comments.
    Senator Sarbanes. Your full statement will be included in 
the record.
    Mr. Grasso. Thank you.
    On behalf of the World Wildlife Fund, as the director of 
the U.S. Marine Conservation Program, it is a pleasure to be 
here today to testify about these two very important treaties 
that the United States is considering moving forward on.
    Today the world's living oceans are under stress from a 
number of human-induced threats. The U.N. Food and Agriculture 
Organization estimates that 70 percent of the world's fisheries 
are considered in an overfished state or approaching being 
overfished. And 25 percent of the global fish catch is 
considered unintentional bycatch, or wasted as dead discards. 
Very dramatic. And if you can imagine explaining that to a 
Chesapeake Bay waterman that a quarter of his crab catch would 
be disposed of as dead or dying, he would be taken aback I 
think dramatically.
    Habitats in the marine environment are under stress as 
well. Some 58 percent of the world's coral reefs are at risk 
from some sort of human activity, whether it is pollution, 
dynamite fishing, or other destructive fishing practices. In 
Indonesia alone, 80 percent of the coral reefs are threatened 
by dynamite fishing, and this is the type of fishing practice 
that is seen in much of the developing world.
    Climate change is having an impact on the marine 
environment as well. In 1997 and 1998, as a result of climatic 
changes, coral bleaching hit the Indian Ocean very hard with 80 
percent of the reefs dying as a result of coral bleaching 
around the Maldives and other islands.
    So, clearly international cooperation and strong 
conservation action are needed to address these threats. The 
Inter-American Tropical Tuna Commission has been around for 
close to half a century. They have faced a number of daunting 
challenges, but no more daunting than the challenges they face 
today. The two that I am speaking of are over-capacity of the 
fishing fleet in the region and the problem of massive bycatch 
with ceratin types of fishing practices.
    Why do I bring these issues up in the context of the 
discussion of whether the EU and other regional economic 
integration organizations should be a party to this treaty? The 
European Union's member state, Spain, currently has the third 
largest fishing fleet in the region. All of those boats that 
the Spanish own, whether they are flagged in Spain or locally, 
use something called FAD fishing, which is a type of fishing 
that is based around floating objects. It attracts fish that 
feed. That type of fishing method has very destructive bycatch 
as a result, catches of small tuna, sharks, rays, and sea 
turtles as well.
    If the EU decides to join as a party to the IATTC, we fully 
expect that they will work vigilantly to promote a limit on the 
capacity of the fishing fleet in the region and address the 
serious bycatch problems that their fleets, as well as other 
fleets in the region, poses to the health of the tuna fishery.
    I mention this because this committee will likely be 
considering later in the year a treaty that was recently 
adopted to manage the tuna fisheries of the Western and Central 
Pacific Ocean. The EU participated as an observer in those 
negotiations. The United States provided a true leadership role 
in promoting that treaty's conclusion. A resolution was adopted 
midway through the negotiations by the parties that said we 
will not increase capacity of the fishing fleet in the region 
until we have adopted a treaty and a management plan is put in 
place.
    Unfortunately, the Spanish fishing industry struck a deal 
with one of the Pacific island countries to gain access to 
their waters, thereby breaching the resolution that was adopted 
by the parties. So, I mention this because I think it is 
important for the EU to be a party to the IATTC, but they also 
have to agree to play by the rules and to work toward promoting 
conservation management.
    Moving on to the South Pacific Region Environment Program, 
this is a very familiar type of program I am sure to both of 
you with your experience with the Chesapeake Bay agreement. In 
the Pacific, collaboration, cooperation, and consensus are the 
Pacific way. SPREP I think demonstrates those principles and 
values very well. Over the years, the United States has 
participated as an observer and has participated. The United 
States' participation as a full party to this agreement and the 
SPREP program would be a wonderful step forward for the United 
States, as well as for the SPREP program.
    With that, I would like to thank you again for allowing me 
to testify here today and would be happy to answer any 
questions.
    [The prepared statement of Mr. Grasso follows:]

     Prepared Statement of Thomas V. Grasso, U.S. Director, Marine 
               Conservation Program, World Wildlife Fund

    Thank you for the opportunity to testify today on the South Pacific 
Regional Environment Programme Agreement and the Protocol Amending the 
1949 Convention of the Inter-American Tropical Tuna Commission. I am 
Tom Grasso, U.S. Director for Marine Conservation at the World Wildlife 
Fund. WWF, the world's largest private conservation organization, works 
internationally to protect wildlife and wildlife habitats. We currently 
sponsor conservation programs in more 100 countries thanks to the 
support of our 1.2 million members in the United States and more than 5 
million members worldwide.
    Today, the living resources of our world's oceans are facing a 
variety of threats from human activities ranging from destructive 
fishing practices, overcapacity of global fishing fleet, unstable 
coastal land use development and the impacts of climate change. The 
United Nation's Food and Agriculture Organization estimates that more 
than 70% of the world's commercial fisheries are being overfished or 
threatened by overfishing. Moreover, approximately 25% of the world's 
total commercial catch of fish is unintentional bycatch or wasted as 
discards. Regarding sensitive marine habitats, 58% of the world's coral 
reefs are at risk from human activities. Already in Indonesia, over 80% 
of the reefs are at risk from dynamite fishing--a threat that is 
widespread in the developing world. In the last decade, climate change 
has emerged as a major threat to coral reefs. When corals are exposed 
to high temperatures large areas of reef loose their colorful algae and 
bleach and die. In 1997-98, coral bleaching hit the Indian Ocean 
particularly hard with an average of around 80% reef mortality in the 
Maldives and other islands.
    International cooperation and strong conservation action aimed at 
reducing the myriad human threats to our world's oceans is desperately 
needed. Today, your committee is considering two such international 
efforts in the Pacific Ocean: the Inter-American Tropical Tuna 
Commission and the South Pacific Regional Environment Programme 
Agreement. I will address the specific issue with respect to each 
agreement individually.
    As you know, the Inter-American Tropical Tuna Commission (IATTC) 
was first established over half-a-century ago. Since that time, the 
IATTC has had to address a number of critical issues facing the tuna 
fisheries of the Eastern Tropical Pacific Ocean (ETP) and the ecosystem 
upon which they rely. Some of these issues include pursuing advances 
fisheries science for support and development of fisheries management 
plans as well as the establishment of fishing quotas and the 
development and administration of the International Dolphin 
Conservation Program whose aim it is to reduce dolphin mortality in the 
tuna fisheries of the ETP.
    Today, IATTC is faced with perhaps its most difficult issues to 
date: that of the gross overcapacity of the region's fishing fleet and 
the massive by catch problems associated with the FAD fishery (a FAD is 
the use of an artificial floating object to attract fish). You may ask, 
why am I raising these issues in the context of hearing on Protocol 
pertaining to amend the IATTC convention? Let me explain why. As you 
know, the protocol is intended to amend the 1949 treaty to allow 
regional economic integration organizations such as the EU to join as 
full-participating parties.
    According to the IATTC, between 1961 and 2001 the number of purse 
seine vessels operating in the ETP has nearly doubled from 125 to 220. 
The volume of well space (the fleets' overall fishing capacity) has 
increased from 31,096m3 to 197,421m3. That increase represents a 642m3 
capacity increase per fishing vessel. Spain currently has 5 Spanish 
flagged with an additional 8 locally flagged, but Spanish-owned, 
fishing vessels operating in the region. As of the fall 2001, this 
aggregated fleet of 13 vessels represents the third largest fishing 
fleet in the ETP region.
    Additionally, from 1992-1999, there has been a dramatic increase in 
the amount of FAD fishing relative to other fishing methods in the 
region. In 1992, 31% of the ETP fishery was FAD fishing. By 1999 that 
percentage had more than doubled with FAD fishing making up 80.4% of 
the ETP fishery. Why is this important? Use of FADs to catch tuna 
results in high levels of undersized tuna and other marine species 
being caught and threatens the health of the marine ecosystem that 
supports the valuable tuna fisheries of the region. According to a 2000 
IATTC bycatch working group document, FAD fishing results in much 
greater bycatch of undersized fish of the three main tuna species 
(yellowfin, skipjack and big eye), when compared to other fishing 
methods (e.g. floating objects 27,133mt, unassociated schools 2,551mt 
and dolphin sets 747mt during 1998). In addition, the workgroup found 
that, again, when compared to other fishing methods, FAD fishing 
resulted in the bycatch of other marine species, such as sea turtles, 
sharks, billfish, mahi mahi and manta rays, nearly an order of 
magnitude greater than the other methods.
    Accordingly, WWF supports amending the 1949 treaty to allow 
regional economic integration organizations, when appropriate, to join 
as party the IATTC. However, as the EU seeks to join the IATTC, WWF 
believes that the EU should do so with the full intentions of working 
aggressively to address the fleet overcapacity and FAD fishing bycatch 
problems that are currently plaguing the region's tuna stocks and 
associated marine species. In addition, the EU should ensure that the 
fleets of their member States comply fully with any regional plans 
aimed at addressing these and other critical issues faced in the 
region. Lastly, to date, the United States has shouldered the lion 
share of costs for administering the IATTC. Should the EU become a 
party, we fully expect the EU to assume a substantial responsibility 
for financially support the work of the IATTC commensurate to their 
interests in the region.
    I will now address the South Pacific Regional Environment Programme 
Agreement. WWF has a substantial interest in the promotion of 
collaborative efforts to protect and enhance the marine environment in 
the South Pacific. As part of our effort to prioritize efforts to 
protect the world's biological diversity, WWF underwent a 
scientifically rigorous effort to identify the most global significant 
ecoregions and what we came up with was a list we call the Global 200. 
In the South Pacific, we have identified marine ecosystems important 
for preserving marine biodiversity in Vanuatu, Fiji, New Caledonia, 
Samoa, Tonga, Tuvalu, Palau, Solomon Islands, Federated States of 
Micronesia and Papua New Guinea. In addition, WWF's South Pacific 
regional programme office based in Suva, Fiji has worked 
collaboratively with the SPREP over the years and believes it them to 
be a valuable partner in the region. The United States support of SPREP 
over the years has been essential to its success. Should the U.S. 
decide to join as a party to SPREP, WWF would view this in a very 
positive light and believe that the United States' full participation 
can only enhance SPREP's the collaborative efforts in the region.
    Mr. Chairman and Members of the Subcommittee, thank you again for 
the opportunity to testify here today.

    Senator Sarbanes. Very good.
    Dr. Barker, we will be happy to hear from you.

    STATEMENT OF DR. DAVID READ BARKER, PRESIDENT, MONITOR 
                  INTERNATIONAL, ANNAPOLIS, MD

    Dr. Barker. Thank you, Senator Sarbanes and Senator Allen. 
I appreciate the opportunity to appear before your committee to 
express support for the Protocol Concerning Specially Protected 
Areas and Wildlife, which I will refer to as the SPAW Protocol, 
to the Convention for the Protection and Development of the 
Marine Environment of the Wider Caribbean Region, the Cartagena 
Convention.
    The Wider Caribbean Region, as defined by the Cartagena 
Convention, is the marine environment of the Gulf of Mexico, 
the Caribbean Sea, and the adjacent areas of the Atlantic Ocean 
from northern Florida down to Suriname, which is at the 
northeast coast of South America. It therefore includes the 
five Gulf States from Texas to Florida, Puerto Rico, and the 
U.S. Virgin Islands.
    This region holds great strategic importance for the United 
States because it is our southern maritime border and it 
contains 27 neighboring countries. The population of the 
islands and the immediate coastal zone is more than 100 million 
people, and 38 percent of them are poor and depend directly on 
agriculture and natural resource extraction for their 
livelihoods. So, the prosperity and economic future of this 
region depends critically on seashore resort tourism. The 100 
million tourists who visit the Caribbean each year contribute 
43 percent of the combined gross domestic product and a third 
of the export revenues of the countries in the region. More 
than 10 million people are directly employed in tourism-related 
jobs, and the livelihoods of several times as many people are 
indirectly affected by the health of the tourism industry and 
therefore by the health of marine environment.
    The hallmarks of Caribbean tourism--living coral reefs, 
brightly colored fish, clear waters and clean sandy beaches--
are components of a healthy marine ecosystem which experience 
has shown can be easily damaged or destroyed by precisely the 
sorts of tourism development activities that most depend on 
them. At the same time, the fact that there is such a large 
number of countries means that substantial international 
cooperation throughout the region is required to make 
conservation efforts effective. It is hard to think of anywhere 
else on Earth where economic growth and international 
cooperation for environmental protection are more intimately 
connected than in the Wider Caribbean Region. This economic and 
environmental nexus is a fundamental strategic challenge for 
the region and it is certainly the basis for U.S. participation 
as a matter of highest national interest.
    These considerations formed the backdrop for the formation 
of the Caribbean Environment Program in 1979 and the adoption 
of the Cartagena Convention in 1983. The Convention imposes 
general obligations on contracting parties to ``prevent, 
reduce, and control pollution of the Convention area and to 
ensure sound environmental management.'' And it lists six 
topics for the development of subsequent protocols, one of 
which is specially protected areas.
    Negotiations to develop the SPAW Protocol concluded in 
January 1990 with the signing of the Protocol by 13 countries, 
including the United States. The Protocol calls on each party 
to establish protected areas and to plan, manage, and enforce 
measures for these areas and for regional cooperation to list 
and create a network of protected areas. One result has been a 
rapid increase in the number of marine protected areas 
throughout the region; more than 300 have now been identified.
    The Protocol also calls for parties to undertake national 
and regional cooperative measures to protect endangered and 
threatened species of flora and fauna listed in three Annexes. 
An initial list of species requiring protection was adopted in 
June 1991. The 481 species cover both marine and terrestrial 
plants and animals and include all species of marine mammals, 
of sea turtles, of corals, and sea fans, as well as other 
species from mollusks to mammals. Many of the listed species 
migrate within and far beyond the region, while some on the 
lists are endemic to very small areas. And 190 of the 481 
species are listed under the U.S. Endangered Species Act.
    Throughout the SPAW negotiations, 15 U.S.-based and 
international conservation organizations worked in close 
cooperation with U.S. Government agencies. This cooperation 
continued until October 26, 1993, when Ambassador David Colson 
testified on behalf of the executive branch at a public hearing 
on the SPAW Protocol held by the Foreign Relations Committee. 
That testimony described two reservations that the State 
Department recommended be included in the U.S. instrument of 
ratification. The first reservation concerned limited taking, 
and the second concerned environmental impact assessment.
    On learning of these proposed reservations, many of the 
conservation groups that had worked for years to bring the SPAW 
Protocol into existence became concerned that reservations by 
the U.S. Government, even reservations on rather narrow 
technicalities, might provide an opening for other signatories 
to ratify the Protocol with much more substantial reservations, 
with the result that the Protocol would come into force of law 
in a greatly weakened form. Some organizations took the view 
that it would be better for the U.S. Government to wait for the 
SPAW Protocol to enter into force of law before ratifying it, 
in order that the reservations of the United States not serve 
as an unfortunate precedent for other countries.
    It took nearly 7 more years for the requisite nine 
countries to ratify the SPAW Protocol and bring it into effect, 
which did not occur until June 2000. During this time, there 
was a very rapid maturation of multilateral environmental 
governance in the region, while the parties to the SPAW 
Protocol turned a paper agreement into a living document linked 
to actual conservation measures. During the 1990's the 
Secretariat of the Caribbean Environment Program organized four 
meetings of an Interim Scientific, Technical and Advisory 
Committee for the SPAW Protocol, open to all countries in the 
region. These meetings created an atmosphere of cooperation 
that fosters an active region-wide work plan now that the 
Protocol has become law. The first conference of the parties 
was held in 2001, and the second conference was held yesterday 
in Jamaica.
    Senator Sarbanes, financial and political support and 
technical leadership from the United States has been important 
to the success of the Cartagena Convention and the SPAW 
Protocol. It is in the interest of the United States to ratify 
the SPAW Protocol in order to be able to participate in its 
implementation as a party rather than simply as an observer. 
The stakes are much too high for the United States to remain on 
the sidelines. The active participation of the United States is 
necessary to enable our southern neighbors to slow and reverse 
the accelerating degradation of the marine environment that is 
at the center of their economic prospects. Now that the SPAW 
Protocol has come into force of law, the environmental 
community is no longer concerned that U.S. reservations might 
set a precedent that would weaken the agreement.
    Since 1998 the wider Caribbean environment network has 
endeavored to inform conservation groups about the SPAW 
Protocol. We have been able to detect only strong support for 
it, as exemplified by a May 2, 2001 joint letter to the 
Committee on Foreign Relations expressing the support of 10 
conservation organizations. That letter is attached with my 
written testimony submitted previously. That letter is just the 
tip of the iceberg of support.
    I, therefore, urge the Foreign Relations Committee to 
report favorably the SPAW Protocol as soon as possible with a 
strong recommendation that the full Senate ratify it.
    Thank you very much for the opportunity to appear before 
you.
    [The prepared statement of Dr. Barker follows:]

      Prepared Statement of David Read Barker, President, Monitor 
                             International

    Mr. Chairman, I appreciate the opportunity to appear before your 
Committee to express support for the Protocol Concerning Specially 
Protected Areas and Wildlife (SPAW Protocol) to the Convention for the 
Protection and Development of the Marine Environment of the Wider 
Caribbean Region (Cartagena Convention). I am President of Monitor 
International, a nonprofit environmental organization that has 
supported the development of the Caribbean Environment Program for the 
past 20 years.
    The Wider Caribbean Region, as defined by the Cartagena Convention, 
is the marine environment of the Gulf of Mexico, the Caribbean Sea and 
the adjacent areas of the Atlantic Ocean, from northern Florida all the 
way down to Suriname, on the northeast coast of South America. The five 
Gulf states from Texas to Florida form the northern border of this 
region, which also includes Puerto Rico and the U.S. Virgin Islands.
    This region clearly holds great strategic importance for the United 
States because it forms our southern maritime border and contains 27 
neighboring countries. The population of the islands and the immediate 
coastal zone of the Wider Caribbean Region exceeds 100 million people, 
38 percent of whom are poor and rely directly on agriculture and 
extraction of living marine resources. The present and future economic 
prosperity of the region depends critically on seashore resort tourism. 
The 100 million tourists who visit the Caribbean each year contribute 
43 percent of the combined gross domestic product and one-third of the 
export revenues of the region. More than 10 million people in the 
region are directly employed in tourism-related jobs, and the 
livelihoods of several times as many people are indirectly affected by 
the health of the tourism industry.
    The hallmarks of Caribbean tourism--living coral reefs, brightly-
colored fish, clear water and clean sandy beaches--are components of a 
healthy marine ecosystem. Experience has shown that the ecosystem can 
be easily damaged or destroyed by precisely the ``tourism development'' 
activities that most depend on them. At the same time, the large number 
of countries means that substantial international cooperation 
throughout the region is required to make marine conservation efforts 
effective. It is hard to think of anywhere else on Earth where economic 
growth and international cooperation for environmental protection are 
more intimately connected than in the Wider Caribbean Region. This 
economic and environmental nexus is a fundamental strategic challenge 
for the region and the basis for U.S. participation as a matter of 
highest national interest.
    These considerations formed the backdrop for the formation of the 
Caribbean Environment Program (CEP) in 1979 and the adoption of the 
Cartagena Convention in 1983. The Cartagena Convention imposes general 
obligations on the Contracting Parties to ``prevent, reduce and control 
pollution of the Convention area and to ensure sound environmental 
management,'' and it lists six topics for subsequent protocols, one of 
which is specially protected areas.
    Negotiations to develop the Protocol on Specially Protected Areas 
and Wildlife (SPAW) began about the time that the Cartagena Convention 
entered into force of law, in 1986, and concluded in January 1990 with 
the signing of the Protocol by 13 countries, including the United 
States. The SPAW Protocol calls on each party to establish protected 
areas and to plan, manage and enforce measures for these areas and for 
regional cooperation to list and create a network of protected areas. 
One result has been a rapid increase in the number of marine protected 
areas throughout the Region; more than 300 have now been identified.
    The Protocol also calls for parties to undertake national and 
regional cooperative measures to protect endangered and threatened 
species of flora and fauna listed in three Annexes. An initial list of 
species requiring protection was adopted in June 1991. The 481 listed 
species cover both marine and terrestrial plants and animals and 
include all species of marine mammals, of sea turtles, and of corals 
and sea fans, as well as other species from mollusks to mammals. Many 
of the listed species migrate within and far beyond the region, while 
some are endemic to very small areas. One hundred ninety of the listed 
species are also listed under the U.S. Endangered Species Act.
    Throughout the SPAW negotiations, 15 U.S.-based and international 
conservation organizations worked in close cooperation with U.S. 
Government agencies. This cooperation continued until October 26, 1993, 
when Ambassador David Colson testified on behalf of the Executive 
Branch at a public hearing on the SPAW Protocol held by the Foreign 
Relations Committee. That testimony described two reservations that the 
State Department recommended be included in the U.S. instrument of 
ratification. The first reservation concerned limited taking, and the 
second concerned environmental impact assessment.
    On learning of these proposed reservations, many of the 
conservation groups that had worked for years to bring the SPAW 
Protocol into existence became concerned that reservations by the U.S. 
Government, even reservations on rather narrow technicalities, might 
provide an opening for other signatories to ratify the Protocol with 
much more substantial reservations, with the result that the Protocol 
could come into force of law in a weakened form. Some organizations 
took the view that it would be better for the U. S. Government to wait 
for the SPAW Protocol to enter force of law before ratifying it, in 
order that reservations of the United States not serve as an 
unfortunate precedent for other countries.
    It took nearly seven more years for the requisite nine countries to 
ratify the SPAW Protocol and bring it into force of law, which did not 
occur until June 2000. During this time, there was a very rapid 
maturation of multilateral environmental governance in the Wider 
Caribbean Region, while the parties to the SPAW Protocol turned a paper 
agreement into a living document linked to actual conservation 
measures. During the 1990s the Secretariat of the CEP organized four 
meetings of an Interim Scientific, Technical and Advisory Committee for 
the SPAW Protocol, open to all countries in the region. These meetings 
created an atmosphere of cooperation that fosters an active region-wide 
workplan now that the Protocol has become law. The first Conference of 
Parties was held in 2001, and the second was held yesterday, in 
Jamaica.
    Mr. Chairman, financial and political support and technical 
leadership from the United States has been important to the success of 
the Cartagena Convention and the SPAW Protocol. It is in the interest 
of the United States to ratify the SPAW Protocol in order to be able to 
participate in its implementation as a party rather than simply as an 
observer. The stakes are much too high for the United States to remain 
on the sidelines. The active participation of the United States is 
necessary to enable our southern neighbors to slow and reverse the 
accelerating degradation of the marine environment that is at the 
center of their economic prospects. Now that the SPAW Protocol has come 
into force of law, the environmental community is no longer concerned 
that U.S. reservations might set a precedent that would weaken the 
agreement. Since 1998 the Wider Caribbean Environment Network has 
endeavored to inform conservation groups about the SPAW Protocol. We 
have been able to detect only strong support for it, exemplified by a 
May 2, 2001 joint letter to the Committee on Foreign Relations 
expressing the support of ten conservation organizations.
    I therefore urge the Foreign Relations Committee to report 
favorably the SPAW Protocol as soon as possible with a strong 
recommendation that the full Senate ratify it.

                                 ______
                                 
                                               May 2, 2001.
The Honorable Jesse Helms
United States Senate
Washington, DC 20510

The Honorable Joseph R. Biden, Jr.
United States Senate
Washington, DC 20510

    Dear Senators;

    We are writing to urge the Senate Foreign Relations Committee to 
report favorably on the protocol concerning Specially Protected Areas 
and Wildlife (SPAW) to the Convention for the Protection and 
Development of the Marine Environment of the Wider Caribbean Region 
(a.k.a. the Cartagena Convention).
    SPAW was developed by the governments of the region, including the 
United States, and is the only environmental agreement addressing 
specific biodiversity conservation issues of the Wider Caribbean 
region. SPAW protects rare and fragile ecosystems and habitats in the 
Wider Caribbean region, thereby protecting the endangered and 
threatened species residing therein. The Wider Caribbean region 
includes the marine environment of the Gulf of Mexico, the Caribbean 
Sea, and areas of the Atlantic Ocean adjacent thereto south of northern 
Florida and within 200 nautical miles of the Atlantic coast. It also 
includes internal waters up to the freshwater limit and related 
terrestrial areas.
    Adopted in Kingston, Jamaica, on January 18, 1990, SPAW came into 
force on April 25, 2000 with nine Parties: Colombia, Cuba, Dominican 
Republic, The Netherlands, Panama, St. Lucia, St. Vincent and the 
Grenadines, Trinidad and Tobago, and Venezuela. The first meeting of 
the Conference of the Parties is scheduled for September 24-28, 2001, 
in Cuba.
    The United States signed SPAW on January 18, 1990, as one of the 
original signatories. SPAW was transmitted to the Senate on October 26, 
1993, at which time the Department of State urged the Senate Foreign 
Relations Committee to ``report favorably the Protocol as soon as 
possible with a strong recommendation thay the full Senate give early 
advice and consent to ratification.''
    We believe it is vital for the United States to be a Party at the 
first SPAW Conference of tbe Parties in September 2001 in order to 
ensure that the protocol continues to serve the interests of the United 
States. To participate as a Party in the first Conference, the United 
States' instruments of ratification must be deposited in Colombia (the 
depository government) by no later than August 24, 2001. We strongly 
urge the Senate Foreign Relations Committee to report favorably on the 
protocol as soon as possible, and the Senate to consent to ratification 
well in advance of the deadline.

            Sincerely,

David Godfrey, Executive Director
  Caribbean Conservation Corp.      David Road Barker, President
                                      Monitor International

Roger Rufe, President
  Center for Marine Conservation    Carl Pope, Executive Director
                                      Sierra Club

Rodger Schlickeisen, President
  Defenders of Wildlife             Christine Stevens, Secretary
                                      Society for Animal Protective 
                                    Legislation

John Passacantando, Exec. Director
  Greenpeace USA                    Alexander F. Watson, VP & Exec. 
                                    Dir.
                                      International Conservation
                                      The Nature Conservancy

Paul G. Irwin, President and CEO
  Humane Society of the United 
States                              Ginette Hemley, Vice President
                                      Species Conservation, World 
                                    Wildlife Fund

    Senator Sarbanes. Well, thank you very much for your 
testimony, and also I should express appreciation for the fine 
work that you have done over a sustained period of time on 
issues in the Caribbean and the environment in the Caribbean.
    Mr. Grasso, how many countries are eligible to sign the 
South Pacific Regional Environment Programme? Is it 18?
    Mr. Grasso. I think so, Senator Sarbanes. It is my 
understanding that every country that has been interested in 
participating as a party has signed other than the United 
States.
    Senator Sarbanes. You mean signed and ratified.
    Mr. Grasso. I am not sure about ratification, but they have 
at least adopted the treaty. I would have to go back and get 
that information for you.
    Senator Sarbanes. But it is your understanding that the 
United States is the only one who has not done so. Is that 
correct?
    Mr. Grasso. That is my understanding.
    Senator Sarbanes. Dr. Barker, on the Caribbean agreement, 
how many countries are eligible to participate in that?
    Dr. Barker. Within the area of the Cartagena Convention, 
there are 33 states and territories. And 28 of them are now 
signatories and have ratified the Cartagena Convention. At 
least nine states have ratified the SPAW Protocol. France and 
Barbados were set to do so within the last 2 or 3 days, and 
whether they have actually done so yet or will do so this week 
or next week is not clear. But clearly the pace of ratification 
has picked up tremendously. The barrier has been for many 
countries that it requires legislation, in some cases quite 
complex legislation, to be in place before they can ratify 
that, and in many cases it has taken almost a decade for them 
to develop this legislation for endangered species and for 
protected areas.
    Senator Sarbanes. The United States is one of the 28 
countries that has ratified the Cartagena agreement. Correct?
    Dr. Barker. Yes.
    Senator Sarbanes. And now we are dealing with a Protocol to 
that agreement.
    Dr. Barker. Right, that is correct.
    Senator Sarbanes. So, presumably there are 28 countries 
eligible to sign the Protocol. You say 9 have done so? Ratified 
it?
    Dr. Barker. Thirteen signed it and I believe now 10 have 
ratified it. Some have ratified it that did not sign it in the 
beginning. All of the signatories are actively working on 
ratification. In fact, all of the countries that are active in 
the region are working on ratification, as far as I know.
    Senator Sarbanes. Do either of you have a view on the 
Tropical Tuna Convention?
    Mr. Grasso. On the IATTC?
    Senator Sarbanes. Yes.
    Mr. Grasso. Yes. As I said in my testimony, we think the EU 
should join. It would be an important step forward for 
conservation to have the EU join and actually be bound by the 
terms and conditions of being parties to that Convention.
    Senator Sarbanes. Yes. Which EU countries at the moment are 
playing any part?
    Mr. Grasso. Right now France is a party with respect to its 
territories in the region, and Spain has 13 vessels either 
flagged in Spain or locally that fish in the region. Those are 
the only ones that I am aware of at this point. It is my 
understanding that France would remain a party, only with 
respect to its territories, even if the European Commission 
becomes a party.
    Senator Sarbanes. Senator Allen.
    Senator Allen. Thank you, Senator Sarbanes.
    Let me first start with you, Mr. Grasso. In your testimony 
you were talking about 70 percent of the oceans are overfished 
or threatened to be overfished. I am absolutely amazed with the 
population increase of the world and these catches. I just flat 
hate waste. I hate waste of electricity, waste of money, waste 
of gas, waste of life, wildlife, game animals, and all the 
rest. And it is amazing the resilience of the ocean with all 
this, if you just look at its bounty.
    Let me just ask you some basic things so we can see where 
we need to go. You say 70 percent is either overfished or 
threatened. Is there a definition of overfished that countries 
of the world will agree that this is overfished? For example, 
when you have an area that is in noncompliance with air 
quality, there are measurements. You will argue endlessly over 
whether these are rational or reasonable or commonsense 
measurements, but nevertheless, there are measurements. Is 
there such an internationally agreed upon definition of 
overfished?
    Mr. Grasso. You ask a very good question because there are, 
obviously, a variety of views of what overfished could be. But 
the figure that I gave you is based on the United Nations Food 
and Agricultural Organization's definition of what overfishing 
is, and that is generally accepted as the definition 
internationally for overfishing or at least in analyzing the 
status of commercial fish stocks. That is why I use that as 
probably the most legitimate definition for the status of 
commercial fish stocks.
    Senator Allen. How much is actually overfished? You use 70 
percent for threatened overfished or overfished. Is it 25 
percent, 50 percent?
    Mr. Grasso. I will have to clarify this later, but 
overfished is somewhere around 30 to 40 percent.
    Senator Allen. If you could get me the absolute amount.
    Mr. Grasso. Absolutely.
    Senator Allen. At any rate, once we get that definition, 
then you would look at the specific areas where there needs to 
be action taken.
    This dynamite fishing. Just an abhorrent approach. It is 
probably pretty much common sense how it would have to be done. 
How do you enforce this? There are a lot of oceans to patrol, 
and how, as a practical matter, can that be enforced? I agree 
with you it ought to be banned and outlawed. You talk about 
hitting a lot of nontarget fish. You are clearly going to get 
it there. At least with nets you are catching it live, and if 
there are ways to throw them back in, there are ways to throw 
back in alive, whatever the nontarget or smaller fish may be.
    We have gone through all of this in the Chesapeake Bay.
    Senator Sarbanes. Right.
    Senator Allen. And all those wonderful controversies for 
crab pots and everything else.
    But how do you enforce on all the waters of the world? I 
guess there are certain areas; Indonesia you mentioned seems to 
be the ones who use that terrible method. But how do you 
enforce it? Or how would you propose enforcing it?
    Mr. Grasso. Right. It is not so much an enforcement issue 
as it is an education issue. As you can imagine, most of this 
type of fishing occurs in places where poverty exists. There is 
a demand for cheap protein. Indonesia is only one example.
    The most effective method we had was our experience off the 
coast of East Africa on Mafia Island where dynamite fishermen 
were coming from the urban centers out to Mafia Island and 
fishing there with dynamite. We educated the local fishing 
community about the impacts of that type of fishing on their 
ecosystem, their environment, their fishing grounds, and they 
formed their own community awareness and community enforcement 
program to keep the dynamite fishermen away.
    But truthfully, you have to go community by community along 
the coasts of the developing world to really get at this issue, 
and it is not something that can be done by international 
protocols or treaties. It really has to be working on the 
ground. WWF has a number of programs that are aimed at helping 
to reduce dynamite fishing around the world.
    Senator Allen. Thank you.
    Now, on tuna, you mentioned the tuna issue, which I 
understand. There is something coming up and you glancingly 
referenced the ones in the Western Pacific. I have been 
focusing on this Andean trade extension. My main focus has been 
on textiles because of many textile jobs in Virginia being 
lost, and I do not care to have more of them lost. There is 
some controversy--and I haven't focused on it--about something 
in this Andean trade extension that has to do with tuna. Are 
you familiar with whatever this is and do you have any position 
on it?
    Mr. Grasso. I am not at all familiar with what the tuna 
connection is with the Andean trade agreement.
    Senator Sarbanes. Ecuador would get tariff-free canned tuna 
into the United States. At the moment, there are six countries 
that send canned tuna into the United States. Ecuador is one. 
The other five are in the Pacific. Well, Thailand is No. 1, but 
the Philippines is a major exporter of canned tuna from 
Mindanao, which is the part of the Philippines now where we 
have this insurgency taking place that we are very concerned 
about.
    The Philippines is very concerned that tariff-free access 
into the United States for Ecuador tuna will, in effect, knock 
them out as a supplier of canned tuna to the United States and 
will shut down an industry in a critical part of their country 
with respect to this insurgency. They tell us a couple of 
hundred thousand jobs are at stake. So, it has some very 
significant consequences. In fact, to accommodate fighting the 
drug trade in the Andean nations, to try to deal with that 
problem, you may intensify the insurgency problem in the 
Philippines, let alone impacting negatively on a country which 
has always been a consistent supporter and ally of ours.
    Senator Allen. Thank you for being here and having the 
Senator on the witness stand. That's good.
    Mr. Grasso. I am honored.
    Senator Allen. I am glad you did not know the answer.
    Senator Sarbanes. I was just visiting the Philippines 
issue.
    Senator Allen. I was going to say you are very 
knowledgeable. I also found out that Senators Stevens and 
Inouye are going to put in an amendment to get that out.
    Senator Sarbanes. That is right.
    Senator Allen. Let me ask Dr. Barker a question. I have 
read your attached list of all the people who are in favor of 
the Specially Protected Areas and Wildlife Protocol to the 
Wider Caribbean Region, the Cartagena Convention. Do you know 
anyone who is opposed to this? The administration is obviously 
in favor of it. All we have heard is testimony about how useful 
it is. You hate to ask somebody who is here as a proponent, but 
sometimes you can figure out the truth of matters by saying, 
well, who is opposed to it and why.
    Dr. Barker. Thank you, Senator. I appreciate that question 
because we have really looked for opposition to this so that we 
would take that opportunity to provide orientation to what this 
actually means and what its consequences are. I have to say 
honestly we have detected no opposition whatsoever.
    The original support for this effort came from marine 
mammal and sea turtle protection organizations, and it has 
spread now to people who are bird watchers. It has spread to 
people who have interests in coral reefs, and it has spread 
much more widely into the tourism industry, which really 
appreciates this linkage between a clean environment and a 
healthy tourism industry. So, I have to answer honestly no.
    Senator Allen. Well, good.
    So, finally, in discerning your remarks, you earlier had 
concerns about U.S. reservations on takings and so forth. Now, 
you feel that even with those reservations on takings, that 
that is no problem. I want to make sure I understand your 
written testimony. It states here ``the environmental community 
is no longer concerned with U.S. reservations that might set a 
precedent that would weaken the agreement.'' So, you are in 
support of it with those minor reservations.
    Dr. Barker. That is correct.
    Senator Allen. Thank you very much, sir.
    Senator Sarbanes. Dr. Barker, let me impose on you, just 
generally, to ask you how you see environmental progress or 
lack thereof with respect to the Caribbean. Are we making 
improvements, or is the situation worsening?
    Dr. Barker. My understanding is that this is something akin 
to the ozone layer question that you had asked Secretary 
Turner. I do not believe that one can say that the 
environmental degradation of the Wider Caribbean has reached an 
end. You can still travel around and see very readily areas of 
mangrove forests that are being cut down to develop new beach 
resorts. You can see the spread of coral bleaching throughout 
the region. You can see the increase of hypoxic areas where the 
oxygen is completely taken up by the extent of phosphate and 
nitrate pollution. So, I think the answer is that the rate of 
deterioration is much lower than it would be without these 
efforts. But frankly, a great deal more effort is needed than 
is presently being undertaken to really sustain a healthy 
environment throughout this region.
    Senator Sarbanes. Of course, you made the point in your 
statement that much of their economy is very directly related 
to having a healthy environment. So, unless this deterioration 
is brought to a halt and you begin to renew the environment, 
they are actually undercutting their economic prospects. Are 
they not?
    Dr. Barker. Exactly. That is exactly correct and it is very 
scary.
    Senator Sarbanes. Well, gentlemen, we thank both of you for 
appearing today. It was very helpful testimony.
    The committee stands adjourned.
    [Whereupon, at 11:25 a.m., the committee was adjourned.]
                              ----------                              


             Additional Questions Submitted for the Record


Responses of Hon. John F. Turner, Assistant Secretary of State, Bureau 
 of Oceans and International Environmental and Scientific Affairs, to 
  Additional Questions for the Record Submitted by Senator Joseph R. 
                               Biden, Jr.

                  questions applicable to all treaties
    Question 1. Has your testimony today been coordinated with the 
other affected departments and agencies of the Executive Branch (such 
as the Environmental Protection Agency, the Fish and Wildlife Service, 
and the National Oceanic and Atmospheric Administration)? If not, why 
not?

    Answer. My testimony today has been coordinated with other 
Executive Branch entities that play an important role in implementing 
these agreements, such as the Environmental Protection Agency; the 
Marine Mammal Commission; the Fish and Wildlife Service, Department of 
the Interior; and the National Oceanic and Atmospheric Administration, 
Department of Commerce.

    Question 2. Are there any related or side agreements with regard to 
any of these treaties which have not been submitted to the Senate?

    Answer. There are no related or side agreements with regard to any 
of these treaties.

    Question 3. Are there any significant interpretive statements made 
by an authorized U.S. official in connection with the negotiation of 
any of these treaties of which the Committee should be aware?

    Answer. No significant interpretive statements were made by an 
authorized U.S. official in connection with the negotiation of these 
treaties.
                             spaw protocol
    Question 1. The SPAW Protocol was submitted by President Clinton. 
Does the Bush Administration support the reservations and understanding 
proposed by the Clinton Administration (note that the proposed 
reservation related to Article 11 was later amended by a letter to the 
Committee from Assistant Secretary for Legislative Affairs Wendy 
Sherman, dated November 3, 1993)?

    Answer. After an extensive review, the Bush Administration has 
determined that it can support the reservations and understandings 
proposed by the Clinton Administration, as amended.

    Question 2. The Committee held a hearing on the Protocol on October 
26, 1993. Written questions for the record were submitted to the 
Department following that hearing. Please review those responses and 
affirm whether they remain valid, or update the responses as 
appropriate.

    Answer. All of the responses remain valid with the following 
exceptions:

          Question #1--The LBS Protocol (The Protocol Concerning Land-
        based Pollution and Activities) has been negotiated and was 
        adopted in 1999. The United States signed the LBS Protocol on 
        October 6, 1999. There has been no recent discussion of a 
        possible protocol on movement of hazardous waste products in 
        the region.

          Question #4--None ot the ten Parties to the SPAW Protocol has 
        designated any terrestrial areas as being within the definition 
        of the Wider Caribbean.

          Question #7--The United States has not requested, and does 
        not intend to request, the Depositary to circulate a letter 
        setting out details of U.S. law or practice with regard to the 
        reservation to Article 11. The United States also has not 
        outlined, and does not plan to outline, our law and practices 
        with regard to the reservation to Article 11 at meetings of 
        SPAW Parties and signatories such as the Interim Scientific and 
        Technical Committee. To date, none of the Parties has ratified 
        the SPAW Protocol subject to a reservation, declaration or 
        understanding.

    Question 3. Article 26 of the Protocol states that the ``initial 
versions of the annexes, which constitutes an integral part of the 
Protocol . . .''

  <bullet> Given that the Protocol itself provides that the Annexes are 
        an ``integral part'' of the Protocol, should not the Senate 
        give advice and consent to ratification of the Annexes at the 
        same time that it gives advice and consent to ratification of 
        the Protocol? What is the justification for treating the 
        Annexes as an Executive Agreement?

  <bullet> If the Senate were to give advice and consent to 
        ratification of the Annexes, would the Executive Branch support 
        inclusion of a declaration stating that the Annexes could be 
        amended in the future without Senate advice and consent, 
        provided that the Senate was given advance notification of the 
        proposed amendments to the Annexes?

    Answer. When the SPAW Protocol was being prepared for submission to 
the Senate in 1993, the State Department consulted with staff of the 
Foreign Relations Committee and concluded the three Annexes were best 
treated as an executive agreement. The Annexes were provided to the 
Committee for the Senate's information, but were not submitted for 
advice and consent. If it is currently the desire of the Committee to 
give its advice and consent to ratification of the Annexes along with 
the Protocol itself, the State Department is agreeable to that approach 
as an acceptable alternative.
    Because amendments to the Annexes will be based on technical 
information about the status of a species, and because a Party has only 
ninety days to object to an amendment, we believe the Senate would not 
care to become involved in formally reviewing each species listing. We 
therefore expect that Annex amendments will be treated as revisions to 
CITES Appendices are handled, i.e., they would not be submitted for 
advice and consent, but will be concluded as executive agreements. We 
would be pleased to provide the Committee information about proposed 
and actual amendments to the Annexes.

    Question 4. Have the annexes been amended since they were submitted 
to the Senate in 1993? If so, please provide the current annexes.

    Answer. No. The annexes have not been amended since they were 
submitted to the Senate in 1993.

    Question 5. Is it anticipated that the U.S. will designate any 
protected areas under Article 4?

    Answer. The United States does not anticipate designating any 
protected areas under Article 4 at this time.

    Question 6. Is the discussion of U.S. law related to environmental 
impact assessments, as set forth on page VIII of the Treaty Doc. 103-5, 
still accurate? If not, please submit an amended summary.

    Answer. Yes. The discussion of U.S. law related to environmental 
impact assessments, as set forth on page VIII of the Treaty Doc. 103-5, 
is still accurate.

    Question 7. Is the discussion of U.S. law regarding the obligations 
of the Protocol, as set forth on page IX of Treaty Doc. 103-5, still 
accurate? If not, please submit an amended summary.

    Answer. Yes. The U.S. Fish and Wildlife Service and NOAA have 
confirmed that the Protocol will be implemented in the United States 
through existing statutory authority and no additional legislation is 
required.

    Question 8. Article 11 provides for amendment of the annexes. In 
the submittal to the Senate (at page VII of Treaty Doc. 103-5) it is 
stated that ``the Administration intends to provide timely notification 
of proposed amendments to the Annexes to the public through a notice in 
the Federal Register in order to ensure adequate time for meaningful 
comment prior to their adoption by the parties.''

  <bullet> Is that the intention of this Administration?

  <bullet> Is there adequate time for such notice under the amendment 
        process set forth in Article 11? At what point in the process 
        would you seek public comment?

    Answer. Yes, that is the intention of the Administration.
    We believe there is adequate time for such notice under the 
amendment process set forth in Article 11 based on the interval between 
the meetings of the SPAW Scientific and Technical Advisory Committee 
and the biennial meetings of the Conference of the Parties. We 
anticipate notifying the public through a notice in the Federal 
Register after the SPAW Scientific and Technical Advisory Committee 
reports its views on the nomination and before the Parties meet to 
decide whether or not to list or de-list the nominated species.

    Question 9. What role has the United States been playing in this 
Protocol since its entry into force? Have we sent observers to the 
meetings of the Parties?

    Answer. The United States has supported the SPAW Protocol since its 
adoption through voluntary contributions to the UNEP Caribbean Trust 
Fund. These contributions support the operation of the UNEP Caribbean 
Environment Program's (CEP) Regional Coordinating Unit in Kingston, 
Jamaica (which acts as the secretariat for both the CEP and the 
Cartagena Convention), and the implementation of programs under the CEP 
related to the Cartagena Convention and its three Protocols. U.S. 
contributions to UNEP for the International Coral Reef Initiative have 
also gone to the CEP in support of SPAW program coral reef projects.
    U.S. delegations have participated in SPAW Protocol-related 
meetings over the years (such as meetings of the Interim Scientific and 
Technical Advisory Committee, the technical committee convened in the 
period between adoption and the coming into force of the Protocol), and 
participated as observers in the first two meetings of the Conference 
of the Parties to the SPAW Protocol in September 2001 and May 2002 and 
the first meeting of the Scientific and Technical Advisory Committee in 
September 2001. The U.S. also participates in the ``Ad hoc Working 
Group for the Review of the Criteria for the Listing of Species in the 
Annexes of the SPAW Protocol,'' an inter-sessional working group 
established at the first Conference of the Parties in September 2001 to 
review the criteria developed for the listing and de-listing of species 
on the SPAW Annexes.
        treaty with niue on delimitation of a maritime boundary
    Question 1. By what means did New Zealand communicate that the 
Government of Niue had the requisite competence to enter into this 
agreement? Orally, or in writing? If in writing, please make available 
a copy of the written communication.

    Answer. New Zealand communicated in writing that the Government of 
Niue had the requisite competence to enter into an agreement with the 
United States. A copy of the Diplomatic Note from the Government of New 
Zealand dated March 5, 1996 is attached.

Ministry of Foreign Affairs and Trade
    WELLINGTON
        5 March 1996

    The Ministry of Foreign Affairs and Trade presents its compliments 
to the Embassy of the United States of America and has the honour to 
refer to the Embassy's Note No. 128-95 of 18 December 1995 seeking 
confirmation from the New Zealand Government that the Government of 
Niue has the requisite competence to conclude on its own behalf a 
treaty establishing a maritime boundary between the United States 
Territory of American Samoa and Niue and to undertake all of the rights 
and obligations specified therein.
    The Ministry wishes to confirm to the Embassy that the Government 
of Niue has the requisite competence to conclude such a treaty on its 
own behalf.
    The Ministry of Foreign Affairs and Trade avails itself of this 
opportunity to renew to the Embassy of the United States the assurances 
of its highest consideration.
 protocol amending the 1949 convention on inter-american tropical tuna 
                               commission
    Question 1. Will the membership of the European Union (EU) result 
in a reduction in the U.S. financial contribution to the Commission? If 
so, what is the anticipated reduction? What percentage of the IATTC 
budget does the U.S. currently contribute?

    Answer. EU membership in the Commission will very likely result in 
a reduction of the U.S. financial contribution to the IATTC. The IATTC 
is still working to revise the funding formula for determining what the 
assessed contribution of each Party will be. Based on current formulas 
being considered, the payment by each country will be based in large 
part on the quantity of tuna caught and the quantity utilized by that 
Party. Because it is difficult to predict when the EU will be able to 
accede and what quantities of tuna will be caught and utilized by 
various countries at that time, we are not in a position to predict the 
size of any such reduction at this time.
    Since 1998, the U.S. has negotiated a progressive reduction in its 
annual contribution to the IATTC from $3.2 million (or about 90 percent 
of the $3.6 million budget of the IATTC at the time) to the current 
level of $2.1 million. Other IATTC members have increased their 
contributions substantially to make up for the U.S. reduction. The U.S. 
payment to the IATTC for FY 2002 is $2.1 million out of total assessed 
contributions of $4.1 million. Thus, the U.S. payment for FY 2002 is 51 
percent of total assessed contributions.

    Question 2. Which states that are members of the EU have a 
significant number of fishing vessels operating in the convention area? 
Will the participation of such states in the conservation and 
management measures of the Commission have a material effect on the 
fishery?

    Answer. The only EU member state with a significant number of 
fishing vessels operating in the convention area is Spain, which has a 
number of large purse seine vessels fishing the eastern Pacific Ocean. 
Currently, these vessels are not legally bound to implement IATTC 
conservation and management measures such as catch quotas, bycatch 
reduction measures and others. EU accession to the IATTC would ensure 
that these vessels are legally bound by the IATTC regime, which, in 
turn, will strengthen the Commission's efforts to ensure a well-
regulated fishery with effective compliance mechanisms.
          south pacific regional environment program agreement
    Question. What is the purpose of the bar on reservations in Article 
10(3)? Did the Department consult with the Committee before agreeing to 
it?

    Answer. No reservation clauses are found in many international 
instruments. They can serve U.S. interests by ensuring that other 
parties cannot take reservations contrary to our interests and to which 
the United States would object. Such clauses are particularly common in 
agreements establishing international organizations in recognition of 
the need to ensure that all Parties will be subject to the same 
institutional requirements. We are not aware that the Committee was 
consulted in this specific instance although we are generally aware 
that the Committee has concerns about provisions barring reservations.

                                   - 

</pre></body></html>
